<html>
<title> - EXAMINING THE PROPER SIZE OF THE NUCLEAR WEAPONS STOCKPILE TO MAINTAIN A CREDIBLE U.S. DETERRENT</title>
<body><pre>[Senate Hearing 112-813]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-813

EXAMINING THE PROPER SIZE OF THE NUCLEAR WEAPONS STOCKPILE TO MAINTAIN 
                       A CREDIBLE U.S. DETERRENT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 25, 2012--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

75-444 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 DIANNE FEINSTEIN, California, Chairman
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            THAD COCHRAN, Mississippi
MARY L. LANDRIEU, Louisiana          MITCH McCONNELL, Kentucky
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
TOM HARKIN, Iowa                     SUSAN COLLINS, Maine
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                            Leland Cogliani
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)
                          Tom Craig (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                          Molly Barackman-Eder







                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Dianne Feinstein....................
  1..............................................................
Statement of Senator Lamar Alexander.............................
  2..............................................................
Statement of General James E. Cartwright, USMC, Retired..........
  4..............................................................
Prepared Statement of General James E. Cartwright, United States 
  Marine Corps (Retired) and Ambassador Thomas R. Pickering......
  8..............................................................
The Global Zero Commission Aims and Purposes.....................
  8..............................................................
A 2022 U.S. Nuclear Force........................................
  9..............................................................
Strengthening Universal Nuclear Disarmament and Nonproliferation.
  9..............................................................
Reducing U.S.-Russia Nuclear Arms Through Negotiations...........
  9..............................................................
From TRIAD to DYAD: Eliminating the Land-Based Missile Component.
  10.............................................................
De-Alerting Strategic Forces.....................................
  10.............................................................
Prompt Launch Constrains Presidential Decisionmaking.............
  11.............................................................
New Strategy and Tools to Support Presidential Conflict 
  Deliberation and Choice........................................
  12.............................................................
Downsizing the Nuclear Complex; Risks and Cost Savings...........
  12.............................................................
Downsizing the Nuclear Force Structure; Risks and Cost Savings...
  13.............................................................
Statement of Hon. Thomas Pickering, Former Undersecretary for 
  Political Affairs, United States Department of State...........
  14.............................................................
Statement of Keith B. Payne, Ph.D., Professor and Department 
  Head, Missouri State University, Department of Defense and 
  Strategic Studies..............................................
  16.............................................................
Prepared Statement of Dr. Keith B. Payne.........................
  19.............................................................
Russian Threats of Nuclear Targeting, Including First or 
  Preemptive Uses of Nuclear Forces..............................
  25.............................................................
Additional Committee Questions...................................
  41.............................................................
Questions Submitted to General James Cartwright, USMC, Retired...
  41.............................................................
Questions Submitted by Senator Susan Collins.....................
  41.............................................................

 
EXAMINING THE PROPER SIZE OF THE NUCLEAR WEAPONS STOCKPILE TO MAINTAIN 
                       A CREDIBLE U.S. DETERRENT

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Tester, and Alexander.


             opening statement of senator dianne feinstein


    Senator Feinstein. I'd like to convene this hearing and say 
good morning and welcome to the Energy and Water subcommittee's 
hearing ``Examining the Size of the Nuclear Weapons Stockpile 
Necessary to Maintain a Credible United States Deterrent.''
    Ladies and gentlemen, we're an appropriations subcommittee. 
Where we come into this is the money that's spent, because this 
is a mandatory security part of our portfolio and the mandatory 
security part of the portfolio keeps growing, which pushes out 
other parts of the portfolio, such as energy, water, various 
other programs run by the Army Corps of Engineers, that kind of 
thing, which makes a fair distribution of assets increasingly 
difficult.
    One of the best things about Washington is that you really 
have access to great minds, people who are good thinkers, 
people who have developed skills over the years. It's important 
to listen as we form our decisions. So that's really the 
purpose of this morning's hearing, to listen to three very 
prominent people, very skilled, very good thinkers, who we will 
introduce very shortly.
    But let me just put forward a few points on the current 
plan for nuclear weapons modernization. It calls for $215 
billion on nuclear weapons and delivery systems in the next 10 
years. According to a recent Stimson Center report, the United 
States already spends about $31 billion a year to maintain 
nuclear weapons capabilities.
    On Monday, I learned from the National Nuclear Security 
Administration (NNSA) that the cost of the B61 life-extension 
program is $8 billion. That's double the cost of the original 
estimate. An independent Department of Defense (DOD) review 
puts the cost at $10 billion.
    Similarly, the cost of building a uranium processing 
facility at Y-12, with which the vice chairman and I have been 
dealing, has grown from $600 million to $6 billion, 10 times 
more the cost projected in 2004. An independent Army Corps of 
Engineers assessment puts the cost of the project as high as 
$7.5 billion.
    So increased costs and schedule delays have already had a 
significant impact on modernization plans. The construction of 
a new plutonium facility at Los Alamos has been delayed by at 
least 5 years. The reason for this delay was to free up funding 
to pay for higher priorities, such as the B61 life-extension 
program and the construction of the uranium facility at Y-12.
    However, this delay would only save $1.8 billion over 5 
years. The new B61 extension program cost estimate alone 
requires NNSA to find an additional $4 billion at a time when 
budgets are shrinking and sequestration is a real possibility.
    These are some of the indicators of where we are. Into this 
came a report which caught my eye. The title is ``Global Zero: 
U.S. Nuclear Policy Commission, Modernizing United States 
Nuclear Strategy, Forces, and Posture for the 21st Century''. 
What also caught my eye were the authors: Retired General James 
Cartwright and Ambassador Thomas Pickering. They are two 
stellar people each in their own area, and I will introduce 
them a bit more fully when the ranking member completes his 
remarks.
    The purpose of this hearing is not to make a decision. It 
is to receive testimony on a different way of approaching this 
issue in light of the fact that we are going to face an 
increasing financial crunch.
    One of my great delights is to work with the man on my 
left. He's fair, he's straightforward, and he's been a good 
friend. So I will ask the distinguished ranking member if he 
has any comments he'd like to make.


                  statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman.
    Welcome to the witnesses, distinguished folks. I agree with 
what the Senator from California said. This is an opportunity 
for us to learn, so I'll be doing a lot of listening today.
    Nuclear weapons are an important component of our national 
defense structure. We all know that. But we have two 
inescapable facts ahead of us. One is that we're short of 
money, borrowing 42 cents of every $1 we spend, and the part of 
the budget that keeps getting squeezed is the part that 
includes everything from national defense to national parks, 
while the mandatory spending runs away.
    So the nuclear modernization costs we're talking about are 
all part of what's getting squeezed. And it already, according 
to the Budget Control Act, is only growing at about the rate of 
inflation over the next 10 years. If the mandatory part of our 
budget were growing at the same rate as the discretionary part, 
we wouldn't really have a fiscal cliff to worry about in a few 
months. So that makes the challenge of dealing with nuclear 
weapons modernization very difficult.
    The other inescapable fact is we have to do it. Especially 
if we're going to reduce our nuclear weapons, we have to make 
sure that what we have left works. We want to make sure that as 
we reduce nuclear weapons we're not left with what amounts to a 
collection of wet matches.
    In December 2010, the President committed to a 10-year plan 
to make sure our remaining weapons work. Then-Defense Secretary 
Gates said at the time, ``There's absolutely no way we can 
maintain a credible deterrent and reduce the number of weapons 
in our stockpile without either resorting to testing our 
stockpile or pursuing a modernization program.''
    In our Energy and Water bill this year, we reported out an 
increased funding of $363 million for NNSA's weapons 
activities. That's a 5-percent increase. It's a huge increase 
compared to other parts of the budget. Yet it falls short of 
the amount called for by the President by about $372 million, 
and it doesn't include the new plutonium facility, the 
Chemistry and Metallurgy Research Replacement (CMRR) facility.
    The administration has indicated that we can defer this 
facility for 5 years and is developing an alternative strategy 
for meeting plutonium requirements in the mean time. Some of 
the testimony you've submitted touches on this, and I'm 
interested to hear your comments because this has provoked a 
major dispute within the Congress. On the one hand, we have 
authorizers who don't believe the alternative strategy is 
acceptable, and we have appropriators who followed the 
administration's recommendations and are short of money.
    So you can help us here in how do we reconcile making sure 
that the nuclear weapons we continue to have work and finding 
ways to save money or not to spend money that we don't have.
    So I thank the chairman for her vision in putting this 
subject up front and for inviting distinguished witnesses, and 
I look forward to the testimony.
    Senator Feinstein. Thank you very much.
    I'd like to introduce the first two witnesses and then ask 
Senator Alexander to introduce Dr. Payne.
    General James Cartwright retired from Active Duty on 
September 1, 2011, after 40 years of service in the United 
States Marine Corps. Unique among Marines, the General served 
as Commander, United States Strategic Command, before being 
nominated and appointed as the eighth Vice Chairman of the 
Joint Chiefs of Staff, the Nation's second-highest military 
officer.
    General Cartwright served his 4-year tenure as Vice 
Chairman across two presidential administrations and constant 
military operations against diverse and evolving enemies. He 
became widely recognized for his technical acumen, vision of 
future national security concepts, and keen ability to 
integrate systems, organizations, and people in ways that 
encourage creativity. He sparked innovation in the areas of 
strategic deterrence, nuclear proliferation, missile defense, 
cybersecurity, and adaptive acquisition processes.
    He was both a naval flight officer and a naval aviator who 
flew the F-4 Phantom, the Skyhawk, the Hornet. In 1983, he was 
named Outstanding Carrier Aviator of the Year by the 
Association of Naval Aviation.
    Our second witness is Ambassador Thomas Pickering. His 
four-decade-long career in foreign service included 
ambassadorships in Russia, India, the United Nations, Israel, 
El Salvador, Nigeria, and Jordan. Additionally, he served as 
Under Secretary of State for Political Affairs from 1997 to 
2000. He holds the rank of career ambassador, the highest in 
the United States Foreign Service.
    Following his retirement from the Foreign Service in 2001, 
Mr. Pickering served as Senior Vice President for International 
Relations at Boeing until 2006. Currently, he is serving as an 
independent board member at the world's biggest pipe company, 
OAO TMK, in Moscow.
    Senator, would you introduce Dr. Payne, please.
    Senator Alexander. Thank you very much.
    Welcome to General Cartwright and Ambassador Pickering. 
It's good to see you again.
    We're delighted to have Dr. Keith Payne. He was a member of 
the Congressional Commission on the United States Strategic 
Posture. He was Assistant Secretary of Defense in 2002 and 
2003, and he's Professor and head of the Graduate Department of 
Defense and Strategic Studies at Missouri State University. So, 
Dr. Payne, welcome, glad you came.
    Senator Feinstein. Thank you very much.
    What I'd like to do is ask each of you to confine your 
remarks to as close to 5 minutes as you can. It'll give us an 
opportunity to have a good back and forth. So we'll begin with 
you, General Cartwright.
STATEMENT OF GENERAL JAMES E. CARTWRIGHT, USMC, RETIRED
    General Cartwright. Thank you, Madam Chairwoman and Vice 
Chairman, Senator Alexander.
    As I sit here and reflect a little bit, the people at this 
table, we have been together for a lot of years, both in 
studies and consulting and operations. So I think you'll get a 
pretty diverse view here.
    In context, we are a nation that's been at war for more 
than 10 years. That war is indicative of the conflicts that 
we're likely to see as we move into the 21st century, and most 
any study that I've seen, whether they're from the intelligence 
community or the academic community, forecasts a level of 
persistent conflict as we look to the future of the type that 
we're seeing. Whether they characterize it as Arab Spring or 
counterinsurgency, it is that low-level conflict that is rising 
from a population that is represented with a maldistribution of 
wealth, whether that be mineral wealth, homes, water, dollars. 
That maldistribution is out there and it's unresolved and it is 
leaving for many in the world a calculus that, if I can't feed 
my family or house my family, my risk for engaging the 
Government that runs the country I live in is very low, I'm 
going after it, I've got to find some way to do something about 
that.
    Our strategic forces were built in the 1950s and 1960s, 
finished out in the 1970s. That war and that conflict they were 
designed for is behind us. They did what they were designed to 
do in the cold war and they deterred. We got up in the 
neighborhood of the tens of thousands of weapons in the 
stockpile during that period. We have come down substantially 
over the past 15 years and we are today under the umbrella of 
the New Strategic Arms Reduction Treaty (New START), which 
takes us down to 1,550 or less deployed weapons.
    Recapitalization of that infrastructure that creates our 
strategic deterrent and of those weapons and delivery systems 
are 50-year decisions and all of them are in front of us, 
whether you're talking about the next generation bomber, the 
next generation intercontinental ballistic missiles (ICBM), the 
next generation submarine and submarine-launched ballistic 
missile (SLBM), or the infrastructure itself. All of these 
decisions are 50-year decisions.
    So I think one thing that everybody at this table can agree 
on is that they shouldn't be just driven strictly by budget; 
they should be led by a thoughtful review of the strategy, 
which the administration has sought to do, but that should be 
joined by the academic community, by people, I guess the old 
people at this table, that have been around this business for a 
while, and the public should take some understanding of this in 
a way such that they understand what it is they're spending 
their hard-earned money on, how much of it they're willing to 
put against this capability, and how much of it we might need 
under what constructs.
    The study's objective was to provide an open discussion 
about--using an illustrative force posture and sizing 
construct. So in other words, take a look at the problems that 
we think are reasonable to consider as you look into the 
future; come up with an alternative sizing construct, in other 
words, the number of weapons and the number of delivery 
platforms and the size of the infrastructure, from what we have 
today, that would address both what we think we know, which 
we're almost always wrong at, and what the future might bring 
to us.
    So you look at what's most likely and what's most dangerous 
when you consider things like this. Those are the two criteria 
that you try to run as a litmus against any proposal that you 
might make.
    The realities today, we have a bipolar strategic 
relationship with Russia, a legacy of the cold war. But we live 
in a multipolar, multicountry, nuclear-capable nations world. 
That's the reality. To some extent, our dialogue with Russia 
locks out realistic dialogues with other nation states that 
either have, aspire to have, or are thinking about moving 
towards the capability of nuclear weapons in their stockpiles.
    The likelihood of an ICBM, strategic bomber war with Russia 
or China is remote, but it is possible. It is not something 
that should be just walked away from or discounted.
    The range of threats and the lethality of those threats in 
today's world are growing. In other words, as we start to watch 
cyber come into capability, as we watch the capabilities of 
potential bio and chemical type weapons and nuclear weapons, 
more people have them and their lethality is growing.
    Proliferation of the intellectual capital that's associated 
with these weapons is being fed by global access to 
information. It is no longer whether or not you can build a 
bomb. What is really the question today is whether you want to. 
In other words, they have access to the information. They can 
get that information.
    Most nation states aspire to weapons of mass destruction as 
a guarantor of their sovereignty. As they think about it, if 
they build these weapons it is to ensure that they can maintain 
their sovereignty. When you come to the nexus between terrorism 
and nuclear weapons, terrorists tend to want these weapons 
generally for weapons that they can use to either undermine the 
confidence of the people of a nation or to kill as many people 
as possible in one bold strike, both of which tend to come 
together, undermining the confidence in a government in power 
and the killing of as many people as possible, when you put the 
nexus between nuclear weapons and terrorists together.
    Extended deterrence, the concept that we had for many years 
that was the guarantor of, you don't need to build these 
weapons, we will put you under our umbrella and we will protect 
you, is losing its credibility, mainly because the threats 
these nations face are not threats of ICBMs or SLBMs raining 
down on them. They are the threats of their neighbors and 
short-range delivery or the potential that a terrorist might 
get control of one of these weapons and bring it to their 
country.
    Their thought process is: Should I have these weapons? Do I 
need them? Will the United States be there when I need them, 
and do they have the capability of protecting me from long 
distances? These are the things that undermine, whether you're 
talking in the Pacific or whether you're talking in the Middle 
East or Europe. It is a question of will we actually respond in 
a way that they think is in their best interests for their 
sovereignty.
    With the rise in the number of nations possessing weapons 
and the number of weapons in their arsenal comes also the 
increased likelihood that the loss of control of one of these 
weapons can occur. It's just the natural thing that more 
nations have these things, there are more weapons out there; 
the likelihood that one of them could be somehow stolen or lost 
control in some way is increasing.
    The likelihood of a mishap with one of these weapons also 
increases. It's not through necessarily intent, but if you are 
a new nation, you're new at handling these weapons, you're new 
at the protocols of protecting these weapons, et cetera, the 
likelihood that you will make a mistake early on is increased. 
That's just the way we looked at it.
    Also, the likelihood of miscalculation of the intent of a 
neighbor or an adversary goes up. So our systems today are 
aging. The systems in other nations, like Russia and China, in 
particular Russia, systems are aging. Their ability to 
characterize whether they're being attacked or whether it is 
something else routinely comes up, and sensors that 
miscalculate or mischaracterize inbound activities as potential 
threats. Time lines for decisions about whether or not a 
country does something about these inbound threats is in 
minutes. The likelihood of a miscalculation with the increased 
number of states that have these weapons is going to go up.
    So these are the things that are most worrisome as we look 
out towards the future and the proliferation of these weapons 
and their capabilities.
    I'm a person whose glass is half full, okay. We have the 
world's greatest conventional military. I'm biased. I put that 
right up front: They are the best. We have built the world's 
greatest intelligence, surveillance, and reconnaissance 
capability. Nobody comes close. We have built the world's 
greatest space capability. People aspire to it, but nobody's 
close yet.
    We have built the world's greatest regional missile 
defense. Nobody comes close. It's growing. Other countries are 
adopting it. It is starting to be integrated into their 
defenses. It is starting to offer nations an alternative to an 
offensive-only posture, and that's important.
    We have integrated all of these capabilities. We are 
building the world's greatest nonkinetic capabilities, whether 
you think about cyber or whether you think about directed 
energy. All of these capabilities are just on the horizon.
    Our greatest strength is our people and the ability of 
those people to integrate all of these capabilities and use 
them in an integrated fashion. It is the vision of what 
Goldwater-Nichols brought to us, the ability to work together, 
to integrate all the capabilities and to never think single 
dimensionally.
    We are looking at the strategic capabilities in this 
hearing, but we should not discount as nontrivial the 
capabilities that we have built in this Nation in defense, in 
missile defense, in offensive capability on the conventional 
side. They are tools. They are credible tools that any 
president would want to use before he or she ever considered 
using a nuclear weapon. That's important. We should not 
discount those capabilities. We have built them, we have spent 
money on them, and we should in fact understand how nuclear 
weapons play into this integrated force.
    I'll close by just hitting a couple of the numbers that we 
have in the study and then we'll be ready to take questions 
after the other two gents have a chance to talk. The study 
recommends--and this is illustrative in nature; it is not a 
hard number. But we recommend 900 total weapons in the 
inventory. That's not like we have done treaties up until now, 
which just recategorizes weapons and we still maintain 
thousands of weapons in other categories. This is a total. All 
other weapons would be eliminated. 900 total in the inventory, 
not deployed. This is the total number, 900.
    Of those, today we would allocate about 720 of them to the 
Trident force, and we would reduce that Trident force from 12 
to 10. We would use the force structure that we have today, on 
the bomber side 18 B-2's, capable of delivering, and we would 
have 180 weapons in that inventory for them.
    Of each of those, the 720 and the 180, only a fraction of 
those would be deployed at any given time. We're generally in 
the mode of one deployed, two in the pipeline, so to speak, 
either being recharacterized and going through testing and 
upgrading or in a hedge status that could be brought out in 
days or weeks if they were needed.
    The posture that we would advocate for is a posture that 
does not have these weapons on minute by minute alert. It is a 
posture that would have these weapons available in 24 to 48 
hours. We worked hard on that activity. We believe that it is 
doable. There are a lot of assumptions in these numbers. There 
are a lot of assumptions in that posture that we would have to 
work our way towards.

                           PREPARED STATEMENT

    There is no recommendation for unilateral movement to these 
numbers. It should be done in conjunction with the Russians. It 
should be done in conjunction with other nuclear nation states, 
so that as we move we have an understanding of what our 
adversaries are doing. We potentially can start to change the 
character of the alert posture from one that is offensive 
weapons on alert to defensive weapons on alert, as we develop 
credible capabilities to provide that alternative.
    We believe that we can be well on that path in a period of 
about 10 years. The savings that we would think are available 
here are in the $100 to $120 billion in that first 10 to 15 
years, depending on the pace at which we wanted to move towards 
this activity. Most of that money is cost avoidance. It's cost 
avoidance. It's not building as many submarines, it's not 
building as many weapons, it's not doing as much on the life-
extension program, because we don't need as many weapons. So a 
lot of this money is cost avoidance. I'll give you that right 
up front. But it is still money and we still have to think 
about it.
    Thank you for this opportunity. I stand ready for your 
questions.
    [The statement follows:]
Prepared Statement of General James E. Cartwright, United States Marine 
           Corps (Retired) and Ambassador Thomas R. Pickering
                              introduction
    Senators Inouye, Feinstein, Alexander, and other distinguished 
members, it's an honor and a pleasure for us to present testimony 
before this august committee. Thank you for inviting us and for taking 
an interest in the findings and proposals of the Global Zero U.S. 
Nuclear Policy Commission on which we served. We hope our commission 
report (Modernizing U.S. Nuclear Strategy, Force Structure and Posture, 
May 2012) and remarks here contribute to your vitally important work in 
protecting America's national security. Our written joint testimony 
highlights some of the commission's key conclusions and recommendations 
as well as answers some of the critical questions raised by readers 
after the report was released to the public.
              the global zero commission aims and purposes
    The goal of the commission was simple: conceive and articulate a 
nuclear strategy, force structure, and posture that best address the 
national security challenges our country faces in the 21st century. We 
first considered present and future threats across the spectrum of 
possibilities, ranging from deliberate or accidental nuclear attack by 
a nation state to terrorist nuclear attack--and everything in between. 
Then we assessed the role of U.S. nuclear weapons in diminishing these 
dangers through deterrence or war-fighting, and also weighed the 
potential for missile defenses, conventional forces, alliance 
cooperation and diplomacy to offer non-nuclear tools to our kitbag for 
dealing with these threats. Next we performed a net assessment of both 
the benefits and risks of further nuclear arms reductions and lowered 
launch readiness (``de-alerting''). Finally, we formulated a new 
construct for a 21st century nuclear strategy.
    Of special interest to the commission was the paramount goal of 
broadening the scope of nuclear arms reductions to include all 
countries and all types of weapons in their possession. The nearly 
half-century of arms negotiations with the Russians has been an 
exclusively two-sided affair that has excluded some important players. 
These negotiations need to be extended to China and other nations that 
maintain existing or planned nuclear arsenals. The major risks of 
nuclear weapons use, proliferation and arms race instability in fact 
mostly lie outside the U.S.-Russian arena, particularly in Northeast 
and South Asia and in the Middle East. It is essential to begin a 
multilateral process that brings the rest of the nuclear-armed world to 
the negotiating table to begin to cap, freeze, reduce and otherwise 
constrain these third-country nuclear arms programs. We estimate that 
U.S. and Russian arsenals would need to be downsized substantially--900 
or fewer total weapons on each side--in order to draw these third-
countries into the process.
                       a 2022 u.s. nuclear force
    Our net assessment concluded that the current U.S. nuclear force 
remains sized and organized operationally for fighting the ``last 
war''--the cold war--even though threats from that era posed by the 
Soviet Union and China have greatly diminished or disappeared. Russian 
and China are not mortal enemies of the United States. Our geopolitical 
relations with our former cold war adversaries have fundamentally 
changed for the better.
    The U.S. (and Russian) arsenal is thus over-stocked. Ample latitude 
exists for further nuclear cuts. The extent of such cuts, the 
composition of the reduced arsenals, and the number of weapons held in 
reserve as a geopolitical hedge against a downturn in relations are 
matters worthy of public debate, and of congressional hearings. There 
are a number of alternative force structures that would well serve to 
maintain a credible U.S. nuclear deterrent and advance other national 
security interests.
    In the commission's view, one such illustrative nuclear force would 
be composed of 900 total strategic weapons--total deployed and 
reserve--on a dyad of ballistic missile submarines and strategic 
bombers. This would represent a steep (80 percent) reduction from the 
current U.S. arsenal, but it would not be a small force, nor a humble 
force designed for minimal deterrence. It would not entail a radical 
shift in targeting philosophy away from military targets to population 
centers. It is not a city-busting strategy. On the contrary, it would 
hold at risk all the major categories of facilities in all the 
countries of interest--a diverse set of nuclear/weapons of mass 
destruction (WMD) forces and facilities, top military and political 
leadership, and war-supporting industry. It would fulfill reasonable 
requirements of deterrence vis-a-vis every country considered to pose a 
potential WMD threat to the United States.
    strengthening universal nuclear disarmament and nonproliferation
    At the same time, an arsenal shrunk to 900 total U.S. weapons, 
matched by comparable Russian reductions, would represent a dramatic 
cut that should work to draw the other nuclear countries into a 
multilateral process culminating in formal arms reduction negotiations 
among all nations with nuclear arms.
    It should also demonstrate a serious U.S. and Russian commitment to 
fulfilling their disarmament obligations under Article 6 of the Non-
Proliferation Treaty, and thereby help rally the anti-proliferation 
community to greater efforts to thwart would-be proliferators. The idea 
is not that virtuous U.S. and Russian behavior in the form of steep 
nuclear arms reductions will inspire aspiring proliferators to abandon 
their quests. We do not subscribe to this naive notion. Rather, there 
are reasons to believe that such behavior could inspire our 
antiproliferation partners to get tougher with recalcitrant states 
seeking the bomb.
         reducing u.s.-russia nuclear arms through negotiations
    The commissioners agreed that cuts to 900 total nuclear weapons in 
the U.S. and Russian arsenals should be the aim of the next round of 
bilateral New START follow-on negotiations. We call upon them to reach 
a comprehensive, verifiable agreement that provides for equal 
reductions by both sides down to a total force of 900 weapons that 
counts all types of strategic and nonstrategic weapons--with ``freedom 
to mix'' on both sides--and that counts every individual warhead or 
bomb whether deployed or held in reserve.
    We wish to emphasize that the commission does not call for 
unilateral cuts by the United States. Our view is that the only valid 
and useful approach should be to negotiate an agreement with the 
Russians. However, there may well be other ways to advance the goal of 
further reductions. Some unilateral steps, or parallel reciprocal steps 
along the lines of the 1991 Presidential Nuclear Initiatives, could 
facilitate the effort. For instance, Russia has already dropped below 
its allowed ceiling of 1,550 deployed strategic forces stipulated by 
the New START agreement. It may behoove the United States to follow in 
Russia's footsteps and take advantage of Russia's unilateral reductions 
to reduce U.S. forces below the allowed level as an approach designed 
to remove the incentive for Russia to build its forces back up and take 
advantage of the benefits, set out further in this presentation, of 
additional reductions. This would serve to lower the ceiling on 
deployments and maintain momentum for further reductions. It would 
match U.S. and Russian forces, take advantage of Russian unilateral 
needs to restrict its force size, maintain stability and serve as a 
further reinforcement of the process of mutual reductions. There is no 
reason why the present verification systems could not be used or 
adapted for use for these kinds of steps. In short, there is some scope 
for parallel reciprocal steps to advance the cause of bilateral arms 
cuts, but we would certainly pursue the cuts through direct 
negotiations with the Russians, and then would seek to add the other 
nuclear weapons countries to this formal process.
    We envision each side enjoying substantial latitude to choose the 
composition of their own forces according to their perceived security 
needs as long as they do not exceed the 900-warhead ceiling. This 
potential variation in the composition of forces is another reason why 
we characterize our proposed U.S. force structure as ``illustrative.'' 
Our commission strongly supports an open debate on the appropriate 
make-up of U.S. nuclear forces, and acknowledges that honest 
differences of opinion exist. Experts differ on the relative merits of 
bombers, submarines and land-based missiles, for instance, and also 
debate whether it is necessary to maintain three different types of 
delivery vehicles in the U.S. arsenal.
    from triad to dyad: eliminating the land-based missile component
    After evaluating the vulnerability, flexibility, and other key 
characteristics of the different delivery systems, our commission 
concluded that a dyad of sea- and air-based strategic weapons would 
meet the post-cold war requirements of deterring a WMD attack on the 
United States. The Minuteman land-based intercontinental ballistic 
missile (ICBM) would be eliminated in this scheme.
    The elimination of Minuteman and consequently of the TRIAD of 
delivery vehicles in favor of a dyad stemmed from the fact that 
Minuteman is vulnerable and inflexible from a targeting standpoint.
    Minuteman is vulnerable to sudden decimation unless it is launched 
promptly on tactical warning of an incoming Russian missile strike. The 
ability to launch promptly the Minuteman force (within a few minutes) 
is often touted as a virtue, but in reality it is a liability. In the 
(admittedly extremely improbable) event of a large-scale Russian 
nuclear missile strike against the three U.S. Minuteman fields, 
enormous pressure would be exerted upon the National Command Authority 
rapidly to authorize the immediate firing of the force en masse--the 
deadline for a presidential (or successor) execution decision would be 
12 minutes at most. Moreover, the unleashing of Minuteman forces would 
necessitate unleashing other strategic missiles--notably Trident 
submarine missiles, because of the integrated operational nature of 
major attack options to assure full coverage of all intended targets.
    The second severe deficiency of Minuteman is its targeting 
inflexibility. It is suitable for the most unlikely scenario--large-
scale nuclear war with Russia--but is unsuitable for nuclear conflict 
with North Korea or Iran because it would have to fly over both Russia 
and China to reach either of them. In the very unlikely event of a 
U.S.-China nuclear conflict, Minuteman missiles would have to fly over 
Russia to reach China.
    Put differently, the Minuteman force is suitable only for Russia 
contingencies, our least likely adversary in nuclear conflict. The 
other legs of the commission's proposed dyad offer means of dealing 
with almost any scenario involving a WMD threat to America from a 
nation-state adversary. Neither U.S. strategic submarine missiles nor 
strategic bombers are constrained by rigid flight trajectories. These 
are versatile platforms that offer highly flexible angles of attack 
against practically any target on the globe. Although a prompt global 
strike by Minuteman could be carried out with a single warhead, a 
Trident missile could perform the same mission (if a small number would 
be downloaded to carry a single warhead instead of the multiple 
warheads now carried) without risk of causing Russia to think it is 
under nuclear missile attack and ordering a nuclear ``counter-strike'' 
in retaliation. Moreover, ballistic missile submarines on alert patrol 
can be fired almost as quickly as Minuteman missiles if so desired (15 
minutes versus 2 minutes), although the commission did not identify 
scenarios in which the prompt launch of sea-based ballistic missiles 
armed with nuclear warheads fulfilled any evident national security 
requirement.
    One critic of the proposal to eliminate Minuteman (and cancel any 
follow-on nuclear ICBM program), the Chief of Staff of the Air Force, 
recently asserted that a critical virtue of this force is that it 
forces an enemy bent on attacking the United States to strike the 
American homeland. Gen. Norton Schwartz said, ``Why do we have a land-
based deterrent force? It's so that an adversary has to strike the 
homeland.'' In the commission's view, the optimal U.S. nuclear 
deterrent would ensure that the U.S. homeland is never struck with 
nuclear weapons in the event of war while preserving the full elements 
of deterrence currently available to the President.
                      de-alerting strategic forces
    The commission viewed unfavorably the continuing practice of 
keeping Minuteman and strategic submarines on launch-ready alert, and 
especially of gearing the nuclear command-control-communications and 
warning system from the President on down to the individual launch 
commanders for rapidly executing the forces in the opening phase of a 
nuclear conflict. (The Russia system is similarly organized.) The 
short-fused Minuteman and strategic submarine alert forces, together 
with the supporting rapid reaction command system, impose a severe 
constraint on presidential deliberation and choice during a crisis or 
conflict. Public reports of past experience with short time lines for 
decisionmaking have shown that the process is flawed and that near 
cataclysmic errors have been narrowly avoided but made more likely by 
the rushed nature of the process. The President and his top advisors 
should have many more tools at their disposal, including non-nuclear 
options, and be afforded the time to deliberate and exercise these 
tools, which include diplomacy.
    The day-to-day high alert posture of the United States today also 
represents a threat to Russia that has untoward unanticipated 
consequences for the United States. By dint of possessing the ability 
to fire U.S. strategic missiles promptly on warning (``launch-under-
attack'' in the operating vernacular), the United States concurrently 
possesses the ability to initiate a sudden massive strike against 
Russia (or any other country). This surprise attack option technically 
threatens the survival of almost all Russian nuclear forces in their 
day-to-day configuration unless, like the United States, Russia 
launches these forces out from under the attack, on warning. If coupled 
with U.S. missile defenses designed against Russia's strategic 
retaliatory forces--a current Russian fear despite American assurances 
that Russia is not a target of such defenses--the U.S. first-strike 
threat puts Russia on even greater vigilance and launch readiness.
    The upshot is that both U.S. and Russian forces are kept on quick-
launch alert because the other side does the same. This entwines the 
two countries in a proverbial ``hair-trigger'' dynamic that increases 
the risks of accidental, mistaken, inadvertent, misinformed, or 
unauthorized launch with devastating consequences. Launch on false 
warning is doubly worrisome in light of the chronic deficiencies in 
Russian early warning that are not going away anytime soon. This is a 
serious risk not to be undertaken without the greatest care to avoid 
it, and we believe that can be done with our proposals while still 
protecting the essential security interests of the nation.
    These postures also set a terrible example for the other nuclear 
armed nations, who for various reasons have not yet adopted launch-
ready postures for their own forces. As a rule, their warheads and 
bombs are kept separate from their means of delivery, a safe practice 
that greatly reduces the danger of an unintended nuclear exchange. We 
can imagine a multitude of grave dangers that would emerge if this 
practice is abandoned in favor of increasing the launch readiness of 
nuclear forces. Acute instability would arise if Pakistan, India, 
China, and North Korea adopted a quick-launch posture requiring 
execution decisions to be made within minutes and seconds on the basis 
of attack early warning indications from satellite infrared or ground 
radar sensors. The risks of unauthorized launch, or the terrorist 
capture of dispersed assembled weapons, would also grow significantly.
    In short, the current launch-ready postures of the United States 
and Russia are major sources of instability. They not only would 
generate pressure on leaders to make a premature decision on the use of 
nuclear weapons in a crisis, but they also run a risk of unintentional 
strikes. The postures pose an existential threat to the very survival 
of the United States, and Russia perceives no less cause for concern.
    The commission therefore recommended the de-alerting of U.S. 
strategic forces in tandem with Russian de-alerting. A negotiated 
agreement that cuts the Gordian knot and allows both sides to stand 
down their forces would well serve their vital security and safety 
interests. In a similar vein, we also proposed that the United States 
deploy only 270 U.S. sea-based strategic warheads on day-to-day patrol, 
a number that is below the approximate threshold of 300 warheads that 
constitute a first-strike decapitation threat to Russia. This reduced 
deployment level would further allay Russian concern over its 
vulnerability and encourage it to get off of its dangerous ``hair-
trigger'' launch posture.
    If the U.S. strategic arsenal required 24 to 72 hours to generate 
the ability to fire and the Russians followed suit, the world would be 
far safer and a norm would be forged to encourage other countries to 
maintain their current practice of keeping weapons separated from their 
bombers, submarines, and land-based rockets. Again, as we make clear, 
this is not a unilateral step but a reciprocal one with Russia to begin 
with and others to follow. It would be insured by the levels of 
reliability we have achieved and can achieve through further work on 
the verification systems and procedures that we have already engaged in 
our nuclear arrangements with Russia.
          prompt launch constrains presidential decisionmaking
    While some observers may view this 24-72 hour generation 
requirement as a constraint that would hobble a U.S. President in a 
crisis, our commission found that the current posture, which exerts 
pressure on the President to make a nuclear choice rapidly, is a far 
greater constraint. Launch-under-attack pressure severely hobbles 
presidential decisionmaking. It deprives our leaders of the time 
necessary for deliberation and of the tools needed to direct U.S. power 
to coherent national purpose.
 new strategy and tools to support presidential conflict deliberation 
                               and choice
    This commission recommendation therefore undertakes the 
responsibility of suggesting a strategy that would relieve the pressure 
on our leaders and reduce our reliance on nuclear weapons as a primary 
or unique choice in the face of aggression. Our report lays out the 
elements of this strategy, which features a growing role for missile 
defenses and conventional forces including a new ICBM (HTV-2) with a 
conventional warhead and sufficient range to reach practically any 
target in the world from home bases on U.S. soil without traversing 
Russian territory during flight. Its range and accuracy would provide 
an unprecedented tool for destroying critical targets globally within 1 
hour. At present, the only tool available to the President for such a 
global quick strike is a nuclear warhead atop a land- or sea-based 
missile.
    Missile defenses and conventional offensive forces as well as other 
kinetic and non-kinetic (cyber) tools of warfare, and various ``soft 
power'' tools would be designed to buy time for a day or two and exert 
non-nuclear leverage to resolve a dispute before it could escalate to 
nuclear dimensions. This strategy would empower a president, not hobble 
him. It would extend the deadline for a nuclear decision. It would help 
stabilize a crisis. Again, it is the paucity of non-nuclear options and 
the time pressure to resort to nuclear options that represents the 
fundamental problem for presidential choice.
         downsizing the nuclear complex; risks and cost savings
    Under the commission's plan, the number of different types of 
nuclear weapons in the U.S. active inventory would decrease from seven 
types today to four by 2022. The need to re-furbish weapons remaining 
in the stockpile would greatly diminish--almost all of weapons 
previously requiring it would be eliminated from the active inventory. 
This drastic curtailing of the life-extension program for thousands of 
weapons currently in the pipeline would save at least $10 billion.
    The existing plutonium pit facility at Los Alamos could readily 
service the regular pit manufacturing demands of a 900-warhead arsenal. 
Assuming a 50-year pit shelf life, only 2 percent of the active 
stockpile, or 18 warheads, would need to be remanufactured each year. 
The facility has a normal throughput capacity of about 20 per year with 
the option to add extra staff shifts in order to raise capacity to 40 
pits per year. With the addition of extra equipment (5-6 years to 
install), the capacity could be increased to perhaps as high as 80 per 
year.
    This number would grow higher still if old pits could be re-used 
and if pits with sensitive, conventional high explosives could be re-
fitted with insensitive high explosives to improve safety. Current 
studies underway at the U.S. national laboratories to be completed 
within the next couple of years should determine the feasibility of 
these options. Preliminary analyses suggest that upwards of 50 percent 
of plutonium pits in the stockpile could be swapped out in these 
processes, allowing for a much faster rate of pit replacement.
    In an emergency in which a systemic defect in one of the four 
warhead types warranted a crash effort to replace those warheads, it 
appears feasible that upwards of 120 defective weapons per year could 
be remedied through a combination of pit manufacturing and pit re-use. 
Such a systemic defect is a low-probability event, but assuming 225 
defective warheads (notionally one-fourth of the 900-warhead total) 
needed to be repaired, it would take approximately 2 years of full-
capacity work to finish the job.
    In short, the current plutonium facility with some new equipment 
working overtime with other partners such as the Pantex facility could 
probably handle an unusual emergency to replace a big chunk of the 
arsenal. Our commission viewed this capability of the existing 
facilities as obviating the need to build the multibillion dollar new 
facility now in early construction stage at Los Alamos. However, some 
small additional risk of reduced stockpile reliability must be 
acknowledged if we shrink the variety of warhead types from seven to 
four, and the margin of comfort for replacing an entire category of 
weapons in the event of a systemic defect is not large. On balance, our 
commission deemed these risks to be quite low, and acceptable, but we 
strongly recommend a full-scope survey by the pertinent agencies 
(National Nuclear Security Administration--NNSA, the national 
laboratories, and Strategic Command) to determine an optimal 
infrastructure in support of the 900-warhead arsenal outlined in the 
commission report.
     downsizing the nuclear force structure; risks and cost savings
Unforeseen Nuclear Challengers?
    Some readers of our report have raised the question whether our 
illustrative force would be stretched thin and fall short if an 
unanticipated threat of major proportions emerged from an unexpected 
source--perhaps an unfriendly state that unexpectedly breaks out a 
substantial nuclear arsenal, or an existing state such as China that 
greatly expands its nuclear arsenal. (In China's case, its recent 
nuclear modernization created an infrastructure capable of 
substantially increasing its existing small arsenal if it chose to do 
so.)
    The answer to this question has three parts. First, this is an 
intelligence challenge that warrants an intelligence estimate as to the 
likelihood of such break-out or rapid expansion scenarios over the next 
10 years. Our commission found no grounds to believe that the 
intelligence community places any credence in them. A Chinese surge is 
unlikely to yield an arsenal much larger than 250-300 warheads. A 
Russian surge appears both financially and technically implausible. 
Although Russia has begun a strategic modernization program with 
upwards of $70 billion earmarked for this purpose over the next 10 
years (an amount far less than the planned U.S. strategic modernization 
budget over the same period), the ability of its military-industrial 
infrastructure to deliver the goods has proven to be quite impaired. 
Pakistan, currently an unfriendly ally of the United States, is rapidly 
growing its arsenal, but its focus is India. Other candidates for such 
a surge are unclear to us. In short, while we do not claim 
clairvoyance, the prospect that any aspiring proliferator or existing 
nuclear-armed nation will undertake a crash build-up on a large scale 
is remote.
    Second, it is highly doubtful that any of the hypothetical 
possibilities could unfold without being detected. Since the beginning 
of the nuclear age, no nation has ever produced enough nuclear weapons 
material to build a bomb without first being detected by foreign 
intelligence. (This applies even to the super-secret U.S. Manhattan 
project in the mid-1940s, before the advent of satellite surveillance 
or on-site inspections.) It strains credulity to project a breakout of 
such a magnitude over the next 10 years that the United States would 
wake up one morning and find itself ``out-gunned.''
    Third, in any case the proposed U.S. arsenal is sufficient to 
project a draconian threat of retaliation against any and all possible 
nuclear newcomers or late-bloomers over the next decade and beyond. It 
is sufficient to deter reliably any conceivable threat on the horizon.
Cost Savings
    A significant cost savings would accrue if our illustrative force 
structure is implemented. An 80-percent force reduction that includes 
the elimination of all Minuteman missiles (and cancellation of its 
replacement), all B-52 bombers and all tactical nuclear forces in the 
U.S. inventory, combined with a scaling back of future strategic 
submarine construction from 12 to 10 boats and of the strategic bomber 
replacement aircraft to a minimum number of nuclear-capable aircraft 
(e.g., 30), would save an estimated $100 billion over the next 15 
years. As noted earlier, the illustrative force would also impose 
lighter demands on the nuclear complex, saving an additional (est.) $20 
billion during this period. The total savings for our proposed nuclear 
architecture is roughly estimated to be $120 billion over the next 15 
years.
                               conclusion
    The nuclear strategy, force structure and posture proposed by our 
diverse commission of generals, diplomats, strategic arms negotiators 
and policymakers are not necessarily the Holy Grail for the next phase 
of our Nation's pursuit of security in the 21st century. We believe, 
however, that our recommendations promise to more squarely and 
effectively address the real threats that our Nation will be facing 
over the next decade than current U.S. nuclear policy promises. A 
fundamental transformation of our nuclear architecture and policy is 
needed to maintain a credible U.S. deterrent against classical risks of 
nuclear aggression by other nations while preserving strategic 
stability and protecting the nation against nuclear proliferation, 
terrorism, cyber warfare, failed states, organized crime, regional 
conflict and other threats the 21st century has wrought. We appreciate 
the opportunity to present our findings and join the debate.

    Senator Feinstein. Thank you very much, General.
    Ambassador Pickering.
STATEMENT OF HON. THOMAS PICKERING, FORMER 
            UNDERSECRETARY FOR POLITICAL AFFAIRS, 
            UNITED STATES DEPARTMENT OF STATE
    Ambassador Pickering. Thank you very much, Madam Chairwoman 
and Senator Alexander. It's a pleasure to be here this morning 
and a particular pleasure to follow on General Cartwright, who 
chaired the commission and whose I think brilliant presentation 
this morning laid out for you not only the problem, but some 
directions toward which the illustrative figures in the report 
that we prepared can provide a solution.
    I will follow along in his wake literally and talk about 
some of the political points that we believe will be important 
in dealing with some of the areas that he was expressing a deep 
concern about, which I share: the question of proliferation and 
also the question of the stability of forces on both sides and 
some of the problems that we hope will be dealt with by this 
particular approach in terms of the pressure for very early 
decision under conditions of some uncertainty, which we have 
had before.
    Of special interest to our commission was the paramount 
goal of broadening the scope of nuclear arms reductions to 
include all of the countries and all of the types of the 
weapons in their possession. The nearly half century of arms 
control negotiations has involved us pretty exclusively with 
the Russians in a two-sided affair that has obviously left 
aside other important players, such as China, Britain, and 
France, among the five recognized nuclear powers. These 
negotiations obviously will need to be extended to China and to 
other nations that maintain existing or planned nuclear 
arsenals, and in my own view they will have to come as well to 
countries like India and Pakistan, Israel, and North Korea, and 
if, God forbid, Iran becomes such a power, with Iran.
    The major risks of nuclear weapon use, proliferation and 
arms race instability, in fact mostly lie outside, as the 
General made clear, the U.S.-Russian arena. Particularly, they 
lie in Northeast and South Asia and in the Middle East. It is 
essential to begin a multilateral process that brings the rest 
of the nuclear-armed world to the negotiating table and that 
begins the process that we have long established of capping, 
freezing, and then reducing and otherwise constraining these 
third country nuclear arms programs.
    Our commission estimated that the U.S. and Russian arsenals 
would need to be downsized substantially, to the 900 or fewer 
total weapons on each side that the General spoke about, in 
order to draw these third countries into the process. At the 
sake time, an arsenal shrunk to 900 total U.S. weapons, matched 
by comparable Russian reductions, would represent in itself a 
dramatic cut that should work to draw those countries into the 
multilateral process, culminating in formal arms reduction 
negotiations among all nations with nuclear arms.
    It should also demonstrate a serious U.S. and Russian 
commitment to fulfill their disarmament obligations under 
Article 6 of the Non-Proliferation Treaty and thereby help to 
convince those that might be significantly interested in 
proliferation that the comparable portion of the bargain on the 
other side, serious reductions in the direction of elimination 
by the U.S. and Russia, was obviously taking place, and that 
greater efforts in this direction I think would be part of the 
background for the kind of work that we would like to take to 
enhance our efforts at proliferation.
    The idea is not, Madam Chairwoman, that the virtuous U.S. 
and Russian behavior in the form of steep nuclear arms 
reductions will inspire aspiring proliferators to abandon their 
quests. We don't ascribe to that naive or somewhat naive 
notion. Rather, there are reasons to believe that that behavior 
would inspire our antiproliferation partners to get tougher on 
the recalcitrant states that are seeking the bomb.
    The commissioners agreed that a total cut to 900 weapons in 
the U.S. and Russian arsenals would be the aim or should be the 
aim of the next round of bilateral New START negotiations to 
follow on the ones that were successfully completed earlier in 
the administration. We call upon them to reach a comprehensive, 
verifiable agreement that provides for equal reductions by both 
sides down to the total force we outlined and that counts all 
types, as the General made clear, of strategic and nonstrategic 
weapons, with the freedom to mix on both sides, that counts 
every individual warhead or bomb whether deployed or held in 
reserve.
    We want to emphasize that the commission does not call for 
unilateral cuts by the United States. Our view is that the only 
valid and useful approach should be a negotiated agreement with 
the Russians. However, there may well be other ways to advance 
the goal of further reductions. Some unilateral steps or 
parallel reciprocal steps along the lines of the 1991 
Presidential Nuclear Initiatives under President Reagan could 
facilitate the effort.
    For instance, Russia has already dropped below its allowed 
ceiling of 1,550 deployed strategic forces stipulated in New 
START. It may well behoove the United States to follow in 
Russia's footsteps and take advantage of Russia's apparent 
unilateral reductions to reduce U.S. forces below the allowed 
level as an approach designed to remove the incentive for 
Russia to rebuild forces back up to a higher level and take 
advantage of the benefits, including for our own budget, if I 
could put it that way, set out further in our presentation of 
additional reductions.
    This would serve to lower the ceiling on deployments and 
maintain momentum for further reductions. It could take 
advantage of Russian unilateral needs to restrict its force 
size while maintaining stability and serve as a further 
reinforcement of the process of mutual reductions. There's no 
reason why the present verification system could not be 
adapted, expanded, enlarged, and this will require some 
inventive work, to take care of the verification of this kind 
of a process.
    We envisage each side enjoying substantial latitude to 
choose the composition of its forces to meet their perceived 
security needs, as long as they don't exceed the maximum 
allowed number, whether that be 900 or a different ceiling. 
This potential variation in the compositions of the forces is 
another reason why we characterize our proposed U.S. force as 
illustrative.
    Much thought needs to be given, much new work needs to be 
accomplished, before some final view on this can be expressed. 
But we believe that raising it here at the hearings is an 
important way to begin that process, and we thank you for doing 
that.
    I have a few final words. The commission is recommending 
that the United States undertake the responsibility--or that it 
undertake the responsibility here in the United States for 
suggesting a strategy that would relieve the pressure on our 
leaders and reduce their reliance on nuclear weapons as a 
primary or unique choice in the face of aggression. Our report 
lays out the elements of that strategy and points as well to 
the growing role for missile defense and conventional forces, 
including a new ICBM with a conventional warhead and sufficient 
range to reach practically any target in the world from home 
bases on our own soil, without traversing Russian territory 
during the flight. Range and accuracy of this missile would 
provide an unprecedented tool for dealing with critical targets 
globally within an hour. At present, the only tool available to 
the President for such global quick strike is a nuclear warhead 
on top of a land or a sea-based missile.
    Missile defenses and conventional offensive forces, as well 
as other kinetic and nonkinetic tools of warfare and various 
soft power tools would be designed to build in time for a day 
or two and exert non-nuclear leverage to resolve disputes 
before they could escalate to their nuclear dimensions. I know 
you and the committee appreciate the value of all of this.
    The strategy would empower a president, not hobble him with 
the need for rapid and excruciatingly difficult decisions under 
tight time deadlines. It would extend the deadline for nuclear 
decisions and would help stabilize crises. Again, the paucity 
of non-nuclear options and the time pressure to resort to 
nuclear options represent fundamental problems at the present 
time.
    I won't go further into some of the other issues, except I 
wanted briefly to address finally the question of cost savings. 
A significant cost saving would accrue if our illustrative 
force structure or something like it is implemented. An 80-
percent force reduction that includes the elimination of all 
Minuteman missiles and cancellation of its replacement, all B-
52 bombers, all tactical nuclear forces in the U.S. inventory, 
combined with a scaling back of future strategic submarine 
construction from 12 to 10 boats as the General has outlined, 
and of the strategic bomber replacement aircraft to a minimum 
number of nuclear aircraft, would save an estimated $100 
billion over 15 years.
    As noted earlier in our report and in our testimony, the 
illustrative force would also pose lighter demands on our 
nuclear complex, saving perhaps an estimated $20 billion during 
this period. The total savings for our proposed nuclear 
architecture is roughly then estimated at $120 billion over the 
next 10 years, as an example, Madam Chairman, of the issues 
that you would like us to have discussed.
    It's been a pleasure to make my presentation and I look 
forward to the questions.
    Senator Feinstein. Thank you very much, Ambassador.
    Dr. Payne.
STATEMENT OF KEITH B. PAYNE, Ph.D., PROFESSOR AND 
            DEPARTMENT HEAD, MISSOURI STATE UNIVERSITY, 
            DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES
    Dr. Payne. Thank you, Madam Chairwoman. It's an honor to be 
here this morning.
    The number of U.S. START-accountable strategic nuclear 
weapons has been reduced by more than 80 percent since the end 
of the cold war. Some analyses, such as the Global Nuclear Zero 
(GNZ) Commission Report, recommend further deep reductions 
compatible with a minimum deterrence policy. I have enormous 
respect for my colleagues at the table and had the pleasure of 
working with General Cartwright for years, but I believe there 
are six basic problems with this report's recommendations, as 
is the case with most proposals for minimum deterrence.
    First, the report recommends deep U.S. reductions that 
would leave only a small U.S. nuclear dyad of sea-based 
missiles and B-2 bombers. When our understanding of opponents 
suggests that deterring them requires flexible targeting 
options and a basic threat to well-protected leaders, military 
forces, and internal security forces as may be the case, then 
this minimum deterrence dyad would not be compatible with 
effective deterrence. It would be dangerously vulnerable and 
inflexible and incapable of addressing even the extremely 
limited targets sets outlined in the GNZ report.
    For more than five decades, all Democratic and Republican 
administrations have sought to avoid such a dangerous 
condition. The GNZ report essentially answers this concern by 
asserting that Russia and China are not opponents and are 
unlikely ever to be so again. Over the past several years, 
however, top Russian leaders have made numerous threats of 
preemptive and preventive nuclear strike against U.S. allies 
and friends. To claim that nuclear weapons will not be salient 
in contemporary or future relations with Russia or China is, I 
believe, an unwarranted and highly optimistic hope, not a 
prudent basis for calculating U.S. deterrence requirements.
    Second, deterrence must work in contemporary and future 
crises. Yet no one knows what will be the future force 
requirements for a credible deterrent because opponents and 
threats shift so rapidly. Consequently, a priority force 
requirement now is sufficient flexibility and diversity to 
adapt deterrence to a wide spectrum of potential opponents and 
threats.
    Yet the minimum deterrence dyad recommended in the GNZ 
report would be the opposite of flexible and resilient. What 
level of U.S. forces is compatible with the requisite U.S. 
flexibility and resilience? In 2001 we defined 1,700 to 2,200 
warhead ceiling with essentially no limits on launchers of such 
a force. In 2010 General Kevin Chilton, then Commander of 
Strategic Command, stated that the ceilings of the New START 
treaty are the lowest numbers that he could accept, given this 
need for U.S. flexibility.
    Third, deterrence is not the only goal of U.S. nuclear 
forces. U.S. forces must also contribute to the assurance of 
our allies and friends. Key allies believe that the credibility 
of U.S. extended deterrence commitments depends on a wide 
variety of U.S. nuclear capabilities, their quantity, and their 
location, and the U.S. capability to threaten a wide variety of 
targets.
    Yet the report's minimum deterrence force levels appear to 
have little or nothing to do with the quantity, types, or 
location of U.S. nuclear forces needed to assure our allies.
    Proponents of minimum deterrence typically respond to this 
concern with the assertion that is repeated in the GNZ report, 
that conventional forces can provide credible assurance for 
allies increasingly. However, some allies already openly state 
that if U.S. nuclear credibility wanes they will be compelled 
to find their own independent deterrence capabilities. That 
could lead to a cascade of nuclear proliferation.
    Non-nuclear capabilities may some day be adequate for 
assurance purposes, but that day has not arrived, per the 
express view of key allies who are concerned about U.S. 
credibility at current force levels.
    Fourth, the basic rationale for further U.S. reductions is 
to strengthen global cooperation on nuclear nonproliferation, a 
rationale repeated in the GNZ report. The net effect of U.S. 
movement toward minimum deterrence, however, may instead be to 
increase nuclear proliferation, as allies feel compelled to 
establish their own deterrence capabilities.
    Fifth, proponents of minimum deterrence also claim that 
further deep force reductions will save scarce U.S. dollars. To 
state that moneys would not be needed if the triad were to be 
abandoned is to state the obvious. However, the real question 
in this regard is the net cost of deep nuclear reductions, 
given the corresponding necessary buildup of advanced 
conventional weapons, a need acknowledged by the authors of the 
report. Claiming savings from a transition to minimum 
deterrence is at best a half truth and we should never take 
risks with our deterrence credibility. The stakes are too high.
    Sixth, the GNZ report, unlike others, justifies further 
deep reductions as a necessary step en route to global nuclear 
zero. Recall, however, that the Bipartisan Congressional 
Strategic Posture Commission concluded unanimously that, ``The 
conditions that might make the elimination of nuclear weapons 
possible are not present today and establishing such conditions 
would require a fundamental transformation of the world 
political order.'' The establishment of a powerful and reliable 
global collective security system would be such a fundamental 
global transition. Further U.S. nuclear reductions would not 
be.

                           PREPARED STATEMENT

    The horrific scale of warfare that the world often suffered 
up until 1945, including 110 million casualties in the 
approximately 10 years of war of World War I and II, that level 
has not been repeated since 1945, thanks at least in part to 
nuclear deterrence. Prudence suggests that we not put nuclear 
deterrence at risk until a reliable alternative approach to 
peacekeeping is in hand, which certainly is not now.
    In summary, I'm skeptical of the GNZ report and further 
U.S. deep nuclear reductions, not for reasons of old think, but 
because the supposed benefits are dubious or illusory and the 
effects may be to undermine deterrence, to undermine assurance, 
and to increase nuclear proliferation in an era of great 
uncertainty.
    Thank you.
    [The statement follows:]
                Prepared Statement of Dr. Keith B. Payne
    The number of United States Strategic Arms Reduction Treaty 
(START)-accountable strategic nuclear weapons has been reduced by more 
than 80 percent since the end of the cold war--from more than 10,000 
weapons in 1991 to fewer than 1,800 today.\1\ We clearly have been well 
past cold war force levels and strategies for many years. There is an 
on-going debate regarding the wisdom of reducing U.S. nuclear forces 
further. Some analyses, such as the Global Nuclear Zero Commission 
(GNZC) report, recommend further deep reductions; others are skeptical.
---------------------------------------------------------------------------
    \1\ Department of States, Bureau of Arms Control, Verification and 
Compliance, Fact Sheet, New START Treaty Aggregate Numbers of Strategic 
Arms, April 6, 2012.
---------------------------------------------------------------------------
    The authors of the GNZC report suggest that the skeptics are driven 
by a continuing commitment to cold war strategies. In fact, this debate 
is not between ``new think'' and ``old think.'' Skeptics of further 
deep reductions have moved well beyond cold war thinking, and I know of 
no one who considers the prospective employment of nuclear weapons to 
be anything other than a last resort option in the most extreme 
circumstances.
    Instead, the basis for the differences between those who advocate 
further deep reductions and those who are skeptical reside in their 
fundamentally different views of deterrence, the current and future 
security environments, and the appropriate methods for measuring ``how 
much is enough?'' for the U.S. nuclear arsenal. The GNZC report, like 
similar reports promoting deep reductions, reflects a familiar approach 
to deterrence force sizing that dates back to the 1960s.
    This approach, often called Minimum Deterrence, considers the U.S. 
nuclear arsenal to be adequate if it essentially is capable of 
threatening a relatively small number of opponent targets. The types of 
targets to be threatened can vary, but the fundamental measure of force 
adequacy is the number of weapons considered necessary to cover targets 
that are relatively few in number and easy to strike. The force level 
deemed adequate via this methodology can be manipulated easily by 
defining and redefining the targets deemed suitable for deterrence. By 
defining down the number and types of targets considered important for 
deterrence, the number of U.S. nuclear weapons deemed adequate for 
deterrence can be reduced to low levels compatible with an aggressive 
arms control agenda. Opponents and threats may not have eased, but 
deterrence metrics can be redefined by fiat to be compatible with deep 
U.S. nuclear reductions. For decades, proposals for Minimum Deterrence 
and related low force levels typically have defined the requirements 
for deterrence in this fashion and thereby have created the deterrence 
policy narrative necessary for deep nuclear reductions.\2\
---------------------------------------------------------------------------
    \2\ Federation of American Scientists, From Counterforce to Minimal 
Deterrence: A New Policy Path Toward Eliminating Nuclear Weapons, 
Occasional Paper No. 7 (April 2009), available at: http://www.fas.org/
pubs/_docs/OccasionalPaper7.pdf.
    \3\ ``The emphasis in McNamara's statements on nuclear forces and 
doctrine shifted after 1963 to that of Assured Destruction. This 
doctrine held that a nuclear exchange would, with high probability, 
result in more than 100 million fatalities in both the United States 
and the U.S.S.R. and that attempts to limit damage through active and 
passive defenses could be readily defeated by improvements in offensive 
forces. The principal test of adequacy of the U.S. strategic force came 
to be the ability of our programmed force to produce civil damage, even 
against a greater than expected threat. The damage criterion settled on 
by McNamara for determining the size of the strategic force was the 
destruction of 20-25 percent of the Soviet population and 50 percent of 
its industrial capacity. The programmed forces decided on in the early 
1960s readily met this test. So readily that it seemed evident that our 
forces were more than adequate. The primary purpose of the Assured 
Destruction capabilities doctrine was to provide a metric for deciding 
how much force was enough: it provided a basis for denying service and 
Congressional claims for more money for strategic forces.'' Henry S. 
Rowen [deputy assistant secretary of defense for international security 
affairs, 1961-1964], ``Formulating Strategic Doctrine,'' in Report of 
the Commission on the Organization of the Government for the Conduct of 
Foreign Policy, Vol. 4, Appendix K: Adequacy of Current Organization: 
Defense and Arms Control (Washington, DC: GPO, June 1975), p. 227 
(emphasis in original).
---------------------------------------------------------------------------
    In the 1960s, for example, Secretary of Defense McNamara publicly 
defined threats to specific percentages of Soviet population and 
industry as the appropriate measure for U.S. deterrence threats. This 
formulation facilitated relatively low U.S. nuclear force requirements 
because the Soviet civilian targets declared key for deterrence were 
relatively few in number and highly vulnerable. According to senior DOD 
officials at the time, the ``primary purpose'' of this definition of 
deterrence adequacy was to have a relatively easy-to-meet measure in 
hand to answer the question ``how much force was enough''.\3\
    This Minimum Deterrence methodology for defining force requirements 
may be compatible with very low force levels, but is inadequate for six 
basic reasons.
    First, calculating the forces adequate for deterrence is not simply 
a matter of identifying some preferred type of U.S. threat that is 
compatible with very low force levels. The requirements for the most 
effective deterrence strategy possible should drive our preferred 
numbers, not vice versa.
    In this regard, Harold Brown, Jimmy Carter's Secretary of Defense, 
rightly concluded that deterrence should be based on a credible threat 
to that which the opponent ``considers most important.'' This is an 
initial starting point for prudently measuring ``how much is enough?'' 
Such deterrence threats will vary for different opponents, times and 
contingencies, and may often be incompatible with the very low, fixed 
number of U.S. nuclear weapons typically recommended by Minimum 
Deterrence. For example, if our understanding of opponents and their 
worldviews suggests that deterring them requires a variety of flexible 
options and a basic threat to well-protected leaders, military forces, 
and internal security forces, as was widely-thought to be the 
requirement vis-a-vis the Soviet Union after the 1960s, then a Minimum 
Deterrence-based force would not be compatible with effective 
deterrence in plausible scenarios, even if it would be compatible with 
an aggressive arms control agenda.
    The GNZC report, for example, calls for the complete elimination of 
the ICBM leg of the traditional U.S. triad of strategic forces 
(bombers, ICBMs, and sea-based missiles), the elimination of the 
nuclear B-52 bomber and U.S. tactical nuclear weapons, and deep 
reductions in sea-based nuclear forces. These recommended reductions 
would leave a small U.S. dyad of sea-based missiles and B-2 bombers. 
Multiple expert assessments of a dyad consisting of sea-based missiles, 
B-52 and B-2 bombers have concluded that such a dyad would reduce the 
number of U.S. aim points for an opponent targeting of U.S. strategic 
forces from about 455 to 5.\4\ A study by the Center for Strategic and 
International Studies concluded that a dyad of sea-based missiles, B-2 
and B-52 bombers, ``presents the worst case for survivability of all 
the options. In a `bolt from the blue' attack, just five dedicated 
nuclear strikes could take out all three strategic nuclear bomber bases 
and the two submarine bases,'' \5\ leaving the United States with just 
the SSBNs at sea. The GNZC's recommended elimination of ICBMs and 
nuclear B-52 bombers could worsen this situation by further reducing 
the number of U.S. targets to only three.
---------------------------------------------------------------------------
    \4\ Dana J. Johnson, Christopher J. Bowie, and Robert P. Haffa, 
``Triad, Dyad, Monad? Shaping U.S. Nuclear Forces for the Future,'' 
Presentation to the Air Force Association Mitchell Institute for 
Airpower Studies, Northrop, 11, available at http://
www.northropgrumman.com/AboutUs/AnalysisCenter/Documents/pdfs/triad-
brief-to-afa-121009.pdf. This discussion is adapted with permission 
from Mark Schneider, ``The Future of the U.S. ICBM Force,'' Comparative 
Strategy, Vol. 3, No. 2 (Spring 2012), pp. 147-148.
    \5\ Owen C. W. Price and Jenifer Mackby, eds., ``Debating 21st 
Century Nuclear Issues,'' Washington, DC: Center For Strategic and 
International Studies, 2007, 23, available at http://
www.northropgrumman.com/AboutUs/AnalysisCenter/Documents/pdfs/triad-
monograph.pdf. In 1998, the Defense Science Board concluded that, 
``Without the ICBMs, surprise attacks against a handful of bomber bases 
and sea-launched ballistic missile facilities, with plausible 
deniability, could drastically alter the correlation of forces.'' See 
General (ret.) John A. Shaud and Dale L. Hayden, ``The Success of our 
ICBM Force: Capability, Commitment, and Communication,'' in Fiftieth 
Anniversary of Intercontinental Missile, Air Force Space Command, High 
Frontier, February 2009, 8, available at www.afspc.af.mil/shared/media/
document/AFD-090224-115.pdf.
---------------------------------------------------------------------------
    The 2009 Bipartisan Strategic Posture Commission (the Perry-
Schlesinger Commission) saw substantial importance in the fact that by 
sustaining the Triad, including the ICBM force, the United States could 
not be subject to an effective small-scale counterforce attack.\6\ It 
noted that, ``for the foreseeable future, there is no prospect that a 
significant portion of the ICBM force can be destroyed by a preemptive 
strike on the United States by small nuclear powers, including China.'' 
\7\
---------------------------------------------------------------------------
    \6\ William Perry and James R. Schlesinger, America's Strategic 
Posture: The Final Report of the Congressional Commission on the 
Strategic Posture of the United States (Washington, DC: U.S. Institute 
of Peace, 2009), pp. 25-26.
    \7\ Ibid. p. 26.
---------------------------------------------------------------------------
    However, at the force levels recommended in the GNZC report and 
with reported normal U.S. operating practices,\8\ only 3-4 U.S. missile 
carrying submarines could be expected to survive an attack by a handful 
of nuclear weapons, leaving 135-180 surviving U.S. warheads. That U.S. 
retaliatory force could be dangerously inflexible and incapable of 
covering even the extremely limited target sets outlined in the GNZC 
report. For over five decades, all Democratic and Republican 
administrations have sought to avoid such a condition because it could 
significantly degrade our deterrence strategy and create provocative 
vulnerabilities. Such recommendations for further U.S. deep reductions 
are all the more troubling in light of the recently declared Russian 
intention to deploy a nation-wide, missile defense ``umbrella'' by 
2020.\9\ In light of such considerations, Gen. Cartwright's previous 
emphasis on the value of the U.S. Triad and the ICBM force is much more 
prudent.\10\
---------------------------------------------------------------------------
    \8\ See, Schneider, ``The Future of the U.S. ICBM Force,'' op. 
cit., p. 148.
    \9\ Chief of the Russian General Staff, Gen. Nikolai Makarov, as 
quoted in Bill Gertz, ``Inside the Ring,'' The Washington Times, 
January 5, 2011, available at http://www.washingtontimes.com/news/2011/
jan/5/inside-the-ring-442522451/print/.
    \10\ See, U.S. Senate, Committee on Armed Services, Hearing to 
Consider the Nominations of General James E. Cartwright, USMC, For 
reappointment to the Grade of General and Reappointment as the Vice 
Chairman of the Joint Chiefs of Staff, July 9, 2009, p. 8.
---------------------------------------------------------------------------
    The GNZC report, however, essentially dismisses this concern by 
asserting that Russia and China are not now opponents and are unlikely 
ever to be so again: ``The risk of nuclear confrontation between the 
United States and either Russia or China belongs to the past, not the 
future.'' Such a prediction fits the narrative for further deep 
reductions, but it does not appear to fit Russian or Chinese actions 
and statements concerning their ambitions and nuclear developments. 
Over the past several years, top Russian leaders have made numerous 
threats of pre-emptive and preventive nuclear attack against United 
States allies and friends. Most recently, the Chief of the Russian 
General Staff, Gen. Nikolai Makarov threatened a pre-emptive attack 
against NATO States, and the threat was implicitly nuclear.\11\ (Please 
see the attached compilation of Russian nuclear threats since 2007 by 
Dr. Mark Schneider at the end of this prepared statement).
---------------------------------------------------------------------------
    \11\ See, ``Russia's Top General Says Preemptive Strike Against 
Missile Shield Possible,'' VOA News, May 3, 2012.
---------------------------------------------------------------------------
    Such threats challenge Western sensibilities and faith in a 
powerful, global nuclear ``taboo,'' but they are within the norm of 
Russian behavior and doctrine regarding nuclear forces. To claim that 
nuclear weapons will not be salient in contemporary or future United 
States relations with Russia or China is an unwarranted and highly 
optimistic prediction, not a prudent basis for calculating U.S. 
deterrence strategies and forces. If wrong, Minimum Deterrence and 
corresponding low force levels could invite serious risk and 
provocations.
    Second, the question of having an adequate deterrence capability 
cannot be answered simply by determining if we can threaten some given, 
contemporary set of targets. Deterrence must work in contemporary and 
future crises, and we will come to those crises with the forces we have 
in hand. No one knows with confidence ``how much of what force'' will 
be necessary for credible deterrence now, and future requirements are 
particularly arcane because opponents and threats can shift rapidly in 
this post-cold war era and the requirements for deterrence 
correspondingly can change rapidly. This reality complicates the task 
of calculating ``how much is enough'' for deterrence. The priority 
deterrence question now is whether we have sufficient force options and 
diversity to threaten credibly the wide spectrum of targets that 
opponents may value over the course of decades. In some plausible 
scenarios, a small and undiversified U.S. nuclear force may be adequate 
for deterrence, in other cases, effective deterrence may demand a large 
and diverse nuclear arsenal with capabilities well beyond those 
envisaged for Minimum Deterrence. Confident declarations that some 
fixed Minimum Deterrence force level will prove adequate cannot be 
based on substance; they reflect only hope and carry considerable risk.
    Instead, the flexibility and resilience of our forces to adapt to 
differing deterrence requirements should be considered a fundamental 
requirement of U.S. force adequacy, and our standing capabilities must 
be sufficiently large and diverse to adapt to a variety of shifting 
deterrence demands. It may be convenient to pick some fixed, low number 
and claim that 300, 400, or 500 weapons will be adequate for deterrence 
now and in the future, but no one can possibly know if such statements 
are true. We do know that the more diverse and flexible our forces, the 
more likely we are to have the types of capabilities needed for 
deterrence in a time of shifting and uncertain threats, stakes, and 
opponents. But force diversity and flexibility does not come 
automatically. It is important that our nuclear force posture and 
infrastructure incorporate these characteristics and that they are 
manifest to opponents and allies for deterrence and assurance purposes 
respectively.
    This need for force diversity and flexibility is one of the reasons 
why the bipartisan Congressional Strategic Posture Commission 
recommended unanimously to sustain the Triad, as did the 2010 Nuclear 
Posture Review and the current and recent past Commanders of Strategic 
Command. The Congressional Strategic Posture Commission reviewed 
arguments in favor of a dyad and instead unanimously highlighted the 
importance of the ``resilience and flexibility of the triad,'' 
qualities which have ``proven valuable as the number of operationally 
deployed strategic nuclear weapons has declined'' and ``promise to 
become even more important as systems age.'' \12\
---------------------------------------------------------------------------
    \12\ Perry, Schlesinger, America's Strategic Posture: The Final 
Report of the Congressional Commission on the Strategic Posture of the 
United States, op. cit., pp. 25-26.
---------------------------------------------------------------------------
    In contrast, moving to a Minimum Deterrence Dyad as recommended in 
the GNZC report would be the opposite of sustaining a diverse force 
with flexibility and resilience. Minimum Deterrence force requirements 
typically are intended to be compatible with deep arms control 
reductions, as is stated in the GNZC report, but could easily prove to 
be too narrow and inflexible to provide effective deterrence in a 
shifting threat environment.
    Adm. Rich Mies, a former Commander of Strategic Command, observed 
recently that ``every STRATCOM force structure analysis'' in which he 
was involved yielded two general truths: ``Diversity affords a hedge 
against single-point failures and significantly complicates a potential 
adversary's offensive and defensive planning considerations [and] there 
is tyranny in low platform numbers that greatly restricts the 
flexibility, survivability and resiliency of the force.''\13\ Indeed, a 
small, undiversified, Minimum Deterrence force:
---------------------------------------------------------------------------
    \13\ See Adm. Richard Mies, USN (ret.), ``Strategic Deterrence in 
the 21st Century,'' Undersea Warfare (Spring 2012), p. 19.
---------------------------------------------------------------------------
  --Will offer fewer choices among warheads and delivery modes, thereby 
        limiting U.S. flexibility and the prospective effectiveness of 
        U.S. deterrence strategies;
  --Is less likely to compensate for weaknesses in one area of our 
        nuclear force structure by strengths in another area;
  --Will, vis-a-vis peer or near peer powers, inevitably move U.S. 
        deterrence strategies toward threats against civilian targets 
        and/or threats against a relatively small set of military 
        targets:
    --the first such threat may well be incredible; and
    --the second inadequate;
  --Eases the technical/strategic challenges for opponents who might 
        seek to counter our deterrence strategies, now or in the 
        future;
  --Will encourage rather than dissuade some opponents to compete and 
        challenge our deterrence strategies.
    What level of U.S. forces is compatible with the requisite U.S. 
flexibility and resilience? This question rightly elevates the 
discussion of deterrence requirements beyond a fixed number of warheads 
to include their diversity, and the number and diversity of their 
launchers. In 2001, we judged 1,700-2,200 operationally deployed 
warheads as sufficient, with no negotiated limits on launchers in the 
Moscow Treaty.\14\ In 2009, Gen. Cartwright stated publicly that he 
would ``be very concerned if we got down below'' 800 launchers,\15\ and 
in 2010, Gen. Kevin Chilton, then-Commander of Strategic Command, 
stated publicly that the 1,550 warhead ceiling of the New START treaty 
was the lowest he could endorse given this need for flexibility.\16\ In 
contrast, the GNZC report, as with most proposals for Minimum 
Deterrence, recommends far lower force levels for weapons and 
launchers.
---------------------------------------------------------------------------
    \14\ Secretary of Defense Donald H. Rumsfeld, Annual Report to the 
President and the Congress (Washington, DC: GPO, 2002), pp. 88-89, 
available at http://history.defense.gov/resources/2002_DOD_AR.pdf.
    \15\ Quoted from, U.S. Senate, Committee on Armed Services, Hearing 
to Consider the Nominations of General James E. Cartwright, USMC, For 
reappointment to the Grade of General and Reappointment as the Vice 
Chairman of the Joint Chiefs of Staff, July 9, 2009, p. 22.
    \16\ Gen. Kevin Chilton, Senate Armed Services Committee, Hearing 
to Receive Testimony on the Nuclear Posture Review, April 22, 2010, pp. 
8, 13, 14; and Gen. Kevin Chilton, House Armed Services Committee, 
Hearing, U.S. Nuclear Weapons Policy and Force Structure, April 15, 
2010, p. 11.
    \17\ ``North Korea's Nuclear Threat/Reinforcing Alliance With U.S. 
Helps Bolster Nuclear Deterrence,'' The Daily Yomiuri, 23 March, 2007.
---------------------------------------------------------------------------
    Third, deterrence is only one among several goals by which to 
measure the adequacy of U.S. nuclear forces. It is impossible to 
measure U.S. force requirements by focusing on deterrence alone. United 
States forces must also contribute to the assurance of our allies and 
friends. This assurance goal is different from deterrence and has 
different specific requirements. The United States has nuclear 
assurance commitments to 30 or more allies and the push for Minimum 
Deterrence undoubtedly threatens our capability to assure allies in 
some important cases.
    Assurance commitments establish diverse quantitative and 
qualitative requirements not included in Minimum Deterrence 
calculations. For example, President John Kennedy identified ``second-
to-none'' as the appropriate standard for the purpose of protecting 
allies and friends; the Nixon administration identified ``essential 
equivalence'' as a necessary measure. And, most recently, some allied 
leaders have identified specific quantitative and qualitative standards 
for U.S. nuclear forces to provide assurance.
    For example, Japanese Defense Minister Fumio Kyuma explicitly 
linked quantitative and qualitative standards to the credibility of the 
U.S. extended nuclear deterrent: he called for ``highly accurate 
nuclear-tipped cruise missiles,'' and stated that, ``The strongest 
deterrence would be when the United States explicitly says, `If you 
drop one nuclear bomb on Japan, the United States will retaliate by 
dropping 10 on you'.'' \17\ More recently, key allies have argued that 
the credibility of U.S. extended deterrence commitments depends on 
specific types of U.S. nuclear capabilities, including low-yield and 
penetrating nuclear weapons, the U.S. capability to threaten a wide 
variety of targets, and the capability ``to deploy forces in a way that 
is either visible or stealthy, as circumstances may demand.'' \18\ 
Again, it is very convenient to claim that 300, 400, or 500 U.S. 
weapons will be adequate for assurance, but such a target-based measure 
may have little or nothing to do with the quantity or types of U.S. 
nuclear forces needed to assure our allies of the credibility of our 
extended nuclear deterrent. U.S. unilateral reductions to low force 
levels as recommended by the GNZC report certainly would destroy any 
remaining U.S. claims of ``second to none'' or ``essential 
equivalence,'' and raise deep concerns among at least some key allies 
and friends.
---------------------------------------------------------------------------
    \18\ Perry, Schlesinger, American's Strategic Posture: The Final 
Report of the Congressional Commission on the Strategic Posture of the 
United States, op. cit., pp. 20-21; and, testimony of Dr. Johnny Foster 
regarding the report of the Congressional Strategic Posture Commission, 
in, U.S. Senate, Senate Armed Services Committee, Hearing on the Report 
of the Congressional Commission on the Strategic Posture of the United 
States, May 7, 2009, available at: http://votesmart.org/
speech_detail.php?sc_id=458591&keyword=&phrase=&contain=.
---------------------------------------------------------------------------
    Proponents of Minimum Deterrence typically respond to this concern 
with the assertion--repeated in the GNZC report--that conventional 
forces can provide assurance for allies that is ``far more credible'' 
than are U.S. nuclear forces. This narrative fits the policy line for 
further deep nuclear reductions, but, U.S. movement to advanced 
conventional strategic forces has been slow and limited, and the actual 
evidence is that some allies find unique assurance in a credible U.S. 
nuclear guarantee. They now state openly that if U.S. nuclear 
credibility wanes, they will be compelled to find their own independent 
deterrence capabilities. Japanese, South Korean and Turkish leaders 
have openly made this point, as have some friends and allies in the 
Middle East. This should not be surprising: West Germany was clear that 
it could agree to the 1969 Nuclear Non-Proliferation Treaty only 
because of the assurance it found in a credible U.S. nuclear umbrella. 
The same was true for South Korea.\19\
---------------------------------------------------------------------------
    \19\ See Keith Payne, Thomas Scheber, Kurt Guthe, U.S. Extended 
Deterrence and Assurance for Allies in Northeast Asia (Fairfax, VA: 
National Institute Press, 2010), pp. 9-10.
---------------------------------------------------------------------------
    This need expressed by some allies for credible U.S. nuclear 
assurance is fully understandable. U.S. advanced conventional forces 
are very likely to contribute usefully to deterrence in some cases. 
But, in the context of a conventional conflict involving United States 
``shock and awe,'' the threat of ``more of the same'' may simply be 
insufficient to deter a committed aggressor.\20\ In contrast, nuclear 
weapons pose the threat of escalation to incalculable consequences and 
thereby appear unique in countering the overly-optimistic expectations 
or high cost-tolerances that often inspire aggression. This factor may 
explain why nuclear deterrence appears to have been the reason Saddam 
Hussein did not employ chemical or biological weapons during the first 
gulf war. In addition, given events over the past decade, the U.S. will 
to engage in another high-cost, large-scale projection of conventional 
force into a distant theater on behalf of friends and allies may appear 
insufficiently lethal or credible to assure some vulnerable allies or 
to deter some determined or eccentric foes. Non-nuclear threats may 
someday be an adequate substitute for nuclear threats for assurance 
purposes, but that day has not arrived per the expressed views of some 
key allies. And, with regard to the U.S. goal of assurance, it is their 
views of U.S. adequacy that matter.
---------------------------------------------------------------------------
    \20\ In 1999, allies saw persistent and concerted NATO conventional 
air strikes fail to destroy a deep tunnel complex at the Pristina 
Airport in Kosovo. As a British inspector present at the time reported, 
``On June 11, hours after NATO halted its bombing and just before the 
Serb military began withdrawing, 11 Mig-21 fighters emerged from the 
tunnels and took off for Yugoslavia.'' Tim Ripley, ``Kosovo: A Bomb 
Damage Assessment,'' Jane's Intelligence Review, Vol. 11, No. 9 
(September 1999), p. 11.
---------------------------------------------------------------------------
    Fourth, the push for Minimum Deterrence puts at risk the U.S. 
capability to deter and to assure for the purpose of strengthening 
global cooperation on nuclear non-proliferation--the rationale repeated 
in the GNZC report. To be specific, the claim is that further U.S. 
nuclear reductions would somehow contribute greatly to nuclear non-
proliferation. This asserted positive linkage between further U.S. 
nuclear reductions and more effective non-proliferation efforts is 
wholly speculative, and I believe mistaken.\21\ Further U.S. nuclear 
reductions are unlikely to improve the behavior of recalcitrant 
proliferators or their enablers. And, on the available evidence, it is 
reasonable to expect that a U.S. transition to Minimum Deterrence would 
increase the incentives for some U.S. friends and allies who now rely 
on the U.S. extended nuclear deterrent to develop or acquire their own 
independent means for nuclear deterrence. Consequently, the net effect 
of movement toward Minimum Deterrence may well be to increase nuclear 
proliferation rather than to strengthen nonproliferation. This would be 
a serious mistake from which we might not easily recover.
---------------------------------------------------------------------------
    \21\ See the pertinent discussion by Chris Ford, ``Disarmament 
Versus Nonproliferation?'' posted at the New Paradigms Forum Web site 
on October 29, 2010, available at: http://www.NewParadigmsForum.com/
NPFtestsite/?p=531.
---------------------------------------------------------------------------
    The GNZC report also asserts that further U.S. unilateral nuclear 
reductions would encourage Russia and China to consider ``comparable 
unilateral actions.'' Perhaps so; but experience suggests not. Harold 
Brown's observation about the Soviet Union appears to apply equally to 
Russia and China today: ``When we build, they build; when we cut, they 
build.''
    Fifth, proponents of Minimum Deterrence also claim that further 
deep force reductions will save scarce U.S. defense dollars. I am 
dubious of this claim. The United States and NATO came to rely on 
nuclear deterrence in general because it was judged to be a feasible 
and much cheaper avenue for security than the buildup of conventional 
forces otherwise necessary. There obviously is a cost to sustaining a 
flexible and diverse nuclear arsenal, including the nuclear Triad. But, 
to state that monies would not be needed for this purpose if we 
abandoned such an arsenal is to state the obvious. The real question in 
this regard is the net cost of further deep nuclear reductions and 
Minimum Deterrence given the corresponding, necessary buildup of 
advanced conventional arms, a buildup acknowledged by the authors of 
the GNZC report. I certainly support advanced U.S. conventional forces 
as a complement to U.S. nuclear capabilities. But to claim savings from 
Minimum Deterrence without also calculating the added cost for the 
advanced conventional forces that supposedly can substitute for 
deterrence purposes is a common error. I do not know how comparisons of 
net costs might appear at this time, but I do know that claiming 
savings simply from Minimum Deterrence and abandonment of the Triad is 
at best a half-truth.
    Sixth, and finally, the GNZC report, like others, justifies the 
push for Minimum Deterrence as a necessary step en route to global 
nuclear zero--one of the Obama administration's stated priority goals. 
It should be recalled, however, that the bipartisan Congressional 
Strategic Posture Commission concluded unanimously that: ``The 
conditions that might make the elimination of nuclear weapons possible 
are not present today and establishing such conditions would require a 
fundamental transformation of the world political order.'' The 
establishment of a powerful and reliable global collective security 
system for the first time in history would be such a fundamental global 
transformation; further, U.S. reductions would not. Winston Churchill 
noted along these lines: ``Be careful above all things not to let go of 
the atomic weapon until you are sure and more than sure that other 
means of preserving peace are in your hands.'' There is no evidence at 
this point of movement toward a serious, reliable global collective 
security system; much less do we have it in hand.
    Consequently, before the pursuit of nuclear zero puts at risk U.S. 
capabilities to deter and to assure credibly, and also threatens to 
increase nuclear proliferation, it is important to recall that over the 
course of centuries we have learned, unfortunately, that conventional 
deterrence periodically fails catastrophically. During the final five 
non-nuclear decades of the last century, the world suffered 
approximately 110 million casualties in just 10 years of warfare. The 
subsequent almost seven decades of nuclear deterrence have been much 
more benign by comparison (see the attached pertinent graphic by Adm. 
Richard Mies, used here with permission). Humankind was at the nuclear 
zero ``mountaintop'' from the beginning of history until 1945, and that 
condition often was ugly and brutal on a scale not repeated since 1945, 
thanks at least in part to nuclear deterrence. Simple prudence suggests 
that we not put U.S. strategies for nuclear deterrence at risk in a 
quest to go back to that mountaintop we so desperately sought 
previously to leave.
    In summary, I am skeptical of the GNZC report and further U.S. deep 
nuclear reductions at this point not for reasons of ``old think,'' but 
because the supposed benefits are dubious or manifestly illusory and 
the effects may be to undermine deterrence and assurance, and to 
increase nuclear proliferation. Gen. Larry Welsh, a former Commander of 
the Strategic Air Command and Air Force Chief of Staff, recently 
observed, ``The only basis for the idea that drastically reducing the 
number of nukes we have would magically make us safer and help 
eliminate other nuclear dangers is hope. But hope is not a plan, and 
hope is not a basis for security. Hope does not defend us.'' And, I 
will add, the unwarranted hopes reflected in the GNZC's most recent 
proposal for Minimum Deterrence should not be the basis for our 
calculations of ``how much is enough?''
                                 ______
                                 
  Russian Threats of Nuclear Targeting, Including First or Preemptive 
                         Uses of Nuclear Forces
                           dr. mark schneider
          senior analyst, national institute for public policy
Then-Defense Minister, Sergei Ivanov, February 2007:
    ``As regard to [the] use of nuclear weapons in case of aggression, 
of course [it will use them in this case]. What else were they built 
for?'' \1\
---------------------------------------------------------------------------
    \1\ ``Russia Reserves Right to Preemptive Strikes,'' Moscow 
Agentstvo Voyennykh Nosostey, February 7, 2007. Transcribed in Open 
Source Center, Doc. ID: CEP200707950213.
---------------------------------------------------------------------------
Statements by Colonel General Nikolay Solovtsov, then commander of the 
        Strategic Missile Troops 2007-2008.
    ``[Correspondent] Russia has reacted sharply to the statement by 
the prime ministers of Poland and the Czech Republic. The commander of 
Strategic Missile Troops [SMT], Nikolay Solovtsov, said that if need 
be, our missiles would be targeted on the new ABM facilities, if they 
are built.'' \2\
---------------------------------------------------------------------------
    \2\ ``General says Russia may target missile defence sites in 
Eastern Europe,'' Moscow Channel One Television, February 19, 2007. 
Translated in Open Source Center, Doc. ID: CEP20070219950390.
---------------------------------------------------------------------------
    ``We have to take measures that will prevent the devaluation of the 
Russian nuclear deterrence potential. I do not rule out that our 
political and military administration may target some of our 
intercontinental ballistic missiles at the aforesaid missile defense 
facilities in Poland and the Czech Republic.'' \3\
---------------------------------------------------------------------------
    \3\ ``Solovtsov: Russian Missiles May Be Targeted At US ABM Sites 
in Europe,'' Moscow, Agentstvo Voyennykh Novostey, December 17, 2007. 
Transcribed by Open Source Center Doc. ID: CEP20071217950364.
---------------------------------------------------------------------------
    ``I cannot exclude that, in the event that the country's highest 
military-political leadership will make the appropriate decision, the 
indicated missile defense facilities in Poland and the Czech Republic 
and also other similar facilities in the future could be selected as 
targets for our intercontinental ballistic missiles'', the general 
stated. ``The RVSN is compelled to take steps, which will not permit 
the devaluation of the Russian nuclear deterrence potential under any 
conditions.'' \4\
---------------------------------------------------------------------------
    \4\ Yuriy Gavrilov, ``The Nuclear Reaction: Strategic Missile 
Complexes Could Be Retargeted at Poland and the Czech Republic,'' 
Moscow Rossiyskaya Gazeta, September 11, 2008. Translated by Open 
Source Center Doc. ID: CEP20080911358018.
---------------------------------------------------------------------------
Statements by General Yury Baluyevskiy, then Chief of the General 
        Staff, 2007-2008:
    ``If we see that these facilities pose a threat to Russia, these 
targets will be included in the lists of our planners--strategic, 
nuclear or others. The latter is a technicality.'' \5\
---------------------------------------------------------------------------
    \5\ ``Baluyevskiy Says US European Missile Defense Poses Threat to 
Russia,'' InternetWebDigest. RU, May 3, 2007. Translated in Open Source 
Center, Doc. ID: CEP20070504358001CEP2007054358001.
---------------------------------------------------------------------------
    ``We do not intend to attack anyone. But all our partners must 
realize that for the protection of Russia and its allies, if necessary, 
the Armed Forces will be used, including preventively and with the use 
of nuclear weapons.'' \6\
---------------------------------------------------------------------------
    \6\ ``Russia will use nuclear weapons if necessary--chief of 
staff,'' Moscow ITAR-TASS, January 19, 2008. Transcribed in Open Source 
Center, Doc. ID: CEP20080119950015.
---------------------------------------------------------------------------
Colonel General Anatoly Nogovitsyn, Defense Ministry Spokesman, August 
        2008:
    ``Poland is making itself a target. This is 100 percent'' certain, 
Russia's Interfax news agency quoted General Anatoly Nogovitsyn as 
saying.
    ``It becomes a target for attack. Such targets are destroyed as a 
first priority,'' Gen Nogovitsyn was quoted as saying.
    He added that Russia's military doctrine sanctions the use of 
nuclear weapons `` . . . against the allies of countries having nuclear 
weapons if they in some way help them,'' Interfax said.\7\
---------------------------------------------------------------------------
    \7\ Damien McElroy, ``Russian general says Poland a nuclear 
`target','' August 15, 2008, available at: http://www.telegraph.co.uk/
news/worldnews/europe/georgia/2564639/Russian-general-says-Poland-a-
nuclear-target-as-Condoleezza-Rice-arrives-in-Georgia.html>.
---------------------------------------------------------------------------
Nikolay Patrushev, the Secretary of the Russian Security Council 
        October 2009:
    ``We have corrected the conditions for use of nuclear weapons to 
resist aggression with conventional forces not only in large-scale 
wars, but also in regional or even a local one . . . There is also a 
multiple-options provision for use of nuclear weapons depending on the 
situation and intentions of the potential enemy. `In a situation 
critical for national security, we don't exclude a preventive nuclear 
strike at the aggressor'.'' \8\
---------------------------------------------------------------------------
    \8\ ``Russia to broaden nuclear strike options,'' Russia Today, 
October 14, 2009, available at: <http://rt.com/news/russia-broaden-
nuclear-strike/>.
---------------------------------------------------------------------------
Lt. General Andrey Shvaychenko, then Commander of the Strategic Missile 
        Troops, December 2009.
    In Shvaychenko's opinion, ``this defines a key role played by the 
RVSN [the Strategic Missile Forces] and the strategic nuclear forces as 
a whole in ensuring Russia's security. In peacetime, they are intended 
to ensure deterrence of large-scale non-nuclear or nuclear aggression 
against Russia and its allies. In a conventional war, they ensure that 
the opponent is forced to cease hostilities, on advantageous conditions 
for Russia, by means of single or multiple preventive strikes against 
the aggressors' most important facilities. In a nuclear war, they 
ensure the destruction of facilities of the opponent's military and 
economic potential by means of an initial massive nuclear missile 
strike and subsequent multiple and single nuclear missile strikes,'' 
the commander explained.\9\
---------------------------------------------------------------------------
    \9\ ``Russia may face large-scale military attack, says Strategic 
Missile Troops chief,'' Moscow ITAR-TASS, December 11, 2009. Translated 
by Open Source Center Doc. ID: CEP20091216950151.
---------------------------------------------------------------------------
Lt-Gen Vladimir Gagarin, then-Deputy Commander of Russia's Strategic 
        Missile Troops, December 2009:
    ``So, the situation is then analysed and orders are issued--either, 
maybe, to launch a massive nuclear strike with the use of everything 
involved in that initial massive nuclear strike; or it could be group 
strikes, that is to say with part [of the forces] used; or it could be 
single strikes, one or two launch systems. Once again, the 
authorization for the launch to be executed, to be carried out, is 
issued by the Russian Federation president, by our supreme commander-
in-chief.'' \10\
---------------------------------------------------------------------------
    \10\ ``Russian Strategic Missile Troops general details re-
armament, structure--more,'' Moscow Ekho Moskvy Radio, September 5, 
2009. Translated by Open Source Center Doc. ID: CEP20090911950207.
---------------------------------------------------------------------------
Lt.-General Sergei Karakayev, Commander of the Strategic Missile 
        Troops, December 2011:
    ``From a technical viewpoint, there are no restrictions on the 
possibility of the use of missiles by RVSN. It does not take a long 
time to select a target and enter it in the flight duty of an 
intercontinental ballistic missile,'' Karakayev said in response to a 
question as to whether changes may be made to the plans of RVSN combat 
use due to the creation of objects of the U.S. missile defense systems 
in Europe and the lack of progress in the negotiations between Russia 
and the U.S. on the matter.
Statements by President Putin, 2007-2008:
    Just before a summit with President Bush he stated, ``I draw your 
attention and that of your readers to the fact that, for the first time 
in history--and I want to emphasize this--there are elements of the 
U.S. nuclear capability [missile defense interceptors] on the European 
continent . . .  If the American nuclear potential grows in European 
territory, we have to give ourselves new targets in Europe.''
    ``We will have to target our missiles at sites which, in our 
opinion, may threaten our national security.''.
    3) In a press conference with the President of Poland he stated, 
``If such systems are deployed on the territory of Poland, which we 
believe will be used to attempt or to neutralize our nuclear missile 
potential, leading to total disruption of the strategic balance in the 
world and will threaten our national security, then what should we do? 
We will have to take some retaliatory measures, which may include 
retargeting some of our strike missile systems onto those facilities, 
which in our opinion will be a threat to us. We would not like to do 
this.''
    At a press conference President Putin said, ``Our General Staff and 
experts believe that this system [the proposed deployment of a missile 
defense site in Poland] threatens our national security, and if it does 
appear, we will be forced to respond in an appropriate manner. We will 
then probably be forced to retarget some of our missile systems at 
these systems, which threaten us.'' \11\
---------------------------------------------------------------------------
    \11\ ``Russian President Putin's uncensored and amazing Interview 
with G8 Newspaper Journalists,'' June 9, 2007, available at: http://
engforum.pravda.ru/index.php?/topic/124795-russian-president-putins-
uncensored-and-amazing-interview-with-g8-journalists/.: ``Russia may 
target missiles at Ukraine in case of security threat--Putin,'' 
Interfax, February 14, 2008, available at: http://en.trend.az/news/cis/
russia/1135177.; ``Putin presser: Russia may have to retarget missiles 
at Poland,'' Moscow Vesti TV, February 14, 2008. Translated by Open 
Source Center Doc. ID: CEP20080214950197.; ``Highlights from Putin's 14 
Feb News Conference,'' OSC Feature--Vesti TV, February 14, 2008. 
Translated by Open Source Center Doc. ID: FEA20080215541987.
---------------------------------------------------------------------------
General Nikolai Makarov, Chief of the General Staff, 2011-2012:
    ```The possibility of local armed conflicts virtually along the 
entire perimeter of the border has grown dramatically,' Makarov said. 
`I cannot rule out that, in certain circumstances, local and regional 
armed conflicts could grow into a large-scale war, possibly even with 
nuclear weapons'.'' \12\
---------------------------------------------------------------------------
    \12\ Robert Bridge, ``Border Alert: Nuke war risk rising, Russia 
warns,'' November 17, 2011, available at: http://rt.com/politics/
makarov-nuclear-russia-nato-575/.
---------------------------------------------------------------------------
    ``Asked about whether there existed a risk of local conflicts near 
Russian borders developing into a full-scale war General Makarov said, 
``I do not rule out such a possibility.'' \13\
---------------------------------------------------------------------------
    \13\ ``No understanding between Russia, West on missile defense--
General Staff,'' ITAR-TASS, December 7, 2011, available at: http://
www.itar-tass.com/en/c154/291946.html.
---------------------------------------------------------------------------
    ``Taking into account a missile defense system's destabilizing 
nature, that is, the creation of an illusion that a disarming strike 
can be launched with impunity, a decision on preemptive employment of 
the attack weapons available could be made when the situation worsens,' 
Makarov said at an international conference on Missile Defense Factor 
in Establishing New Security Environment in Moscow on Thursday.
    The deployment of new attack weapons in the south and northwest of 
Russia to strike missile defense sites, including the deployment of the 
Iskander missile systems in the Kaliningrad region, is among the 
possible options for destroying missile defense infrastructure in 
Europe.'' \14\
---------------------------------------------------------------------------
    \14\ ``Russia Might Strike European Missile Defense Sites 
Preemptively--Military Official (Part 2),'' Interfax, May 3, 2012, 
available at: http://www.interfax.co.uk/russia-cis-general-news-
bulletins-in-english/russia-might-strike-european-missile-defense-
sites-preemptively-military-
official-part-2-2/.
---------------------------------------------------------------------------
Statements by President Medvedev, 2008-2011:
    ``During televised remarks President Medvedev said, `I would add 
something about what we have had to face in recent years: what is it? 
It is the construction of a global missile defense system, the 
installation of military bases around Russia, the unbridled expansion 
of NATO and other similar `presents' for Russia we therefore have every 
reason to believe that they are simply testing our strength. Of course 
we will not let ourselves be dragged into an arms race. But we must 
take this into account in defense expenditures. And we will continue to 
reliably protect the safety of the citizens of Russia. Therefore, I 
will now announce some of the measures that will be taken. In 
particular measures to effectively counter the persistent and 
consistent attempts of the current American administration to install 
new elements of a global missile defense system in Europe. For example, 
we had planned to decommission three missile regiments of a missile 
division deployed in Kozelsk from combat readiness and to disband the 
division by 2010. I have decided to abstain from these plans. Nothing 
will disband. Moreover, we will deploy the Iskander missile system in 
the Kaliningrad Region to be able, if necessary, to neutralize the 
missile defense system. Naturally, we envisage using the resources of 
the Russian Navy for these purposes as well.'.'' \15\
---------------------------------------------------------------------------
    \15\ ``Medvedev Russia will deploy Iskander in Kaliningrad to 
neutralize U.S. missile threats,'' available at: http://
mishasrussiablog.blogspot.com/2008/11/medevev-russia-will-deploy-
iskanders-in.html.
---------------------------------------------------------------------------
    ``Second, protective cover of Russia's strategic nuclear weapons 
will be reinforced as a priority measure under the programme to develop 
our air and space defences.
    Third, the new strategic ballistic missiles commissioned by the 
Strategic Missile Forces and the Navy will be equipped with advanced 
missile defence penetration systems and new highly effective warheads.
    Fourth, I have instructed the Armed Forces to draw up measures for 
disabling missile defence system data and guidance systems if need be. 
These measures will be adequate, effective, and low-cost.
    Fifth, if the above measures prove insufficient, the Russian 
Federation will deploy modern offensive weapon systems in the west and 
south of the country, ensuring our ability to take out any part of the 
United States missile defence system in Europe. One step in this 
process will be to deploy Iskander missiles in Kaliningrad Region.'' 
\16\
---------------------------------------------------------------------------
    \16\ ``Statement in connection with the situation concerning the 
NATO countries' missile defence system in Europe,'' Office of the 
President of the Russian Federation, November 23, 2011, available at: 
http://eng.kremlin.ru/news/3115 able and constructive approach from our 
Western partners.
---------------------------------------------------------------------------
Statement by Defense Anatoliy Serdyukov February 2010:
    ``If additional threats emerge in Europe, the Iskander will be 
deployed (in Kaliningrad Region).'' \17\
---------------------------------------------------------------------------
    \17\ ``Russian defence minister explains missile deployment 
statement,'' Interfax, February 19, 2010, available at: http://
wnc.dialog.com/.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Feinstein. Thank you very much, Dr. Payne, and 
thank all three of you.
    We'll now begin a round of questions.
    As both General Cartwright and Ambassador Pickering have 
pointed out, Russia is already below the New START limits on 
deployed strategic delivery vehicles and warheads, and this is 
because they're retiring their older systems faster than 
they're adding new systems. However, it's my understanding that 
Russia is considering the development of a new intercontinental 
ballistic missile that can carry up to 10 warheads.
    So here's the question: Could reciprocal reductions or a 
new bilateral arms control agreement dissuade Russia from 
moving forward with its destabilizing nuclear modernization 
programs, such as a new ICBM? Who wants to take that? General 
Cartwright.
    General Cartwright. I'll start and let the others follow on 
it.
    Senator Feinstein. Okay, we'll go down the line.
    General Cartwright. I think that, one, you've characterized 
the Russian reductions very accurately as to the probable 
motive of the transition from older systems to newer systems. 
The development of those systems, the pace at which they're 
being fielded, is behind the pace at which they're retiring. 
We've faced much the same problem in this country. We'll go 
through that same evolution as we start to move forward.
    I'm not sure that it's a question of dissuading them, 
although that may be one of the attributes of the discussion. 
It's probably a question of giving them to opportunity for an 
alternative approach, and that's what Ambassador Pickering was 
trying to, I think, illustrate, is that if we were to follow 
suit now, which would require no treaty change, but move from 
where we are, instead of taking 7 years to get down to 1,550, 
to move more quickly to match the Russians and have that 
dialogue with them, which requires no real change in any 
treaties, the demonstration of where we're heading would be 
confirmed for them and that may alter their calculus about how 
much they want to spend and how much they want to build and how 
much they need to modernize.
    Like us, they may choose to modernize one element over 
another or they may choose to just have smaller forces and have 
them of the same character. That's really up to them. But you 
can see in the open press that the character of their force is 
moving away from strategic towards tactical. They believe the 
adversaries they have to worry about on the most likely side 
are adversaries that are much closer to their homeland. They 
are not the ICBM-type threats that they're worried about.
    As they change the character of their force, the 
opportunity to have a dialogue with us to create a stable 
transition so that they can change the character of their force 
and the size of it and we can do the same I think is an 
opportunity, not a vulnerability.
    Senator Feinstein. Ambassador, do you have a comment?
    Ambassador Pickering. I would only add, I've spent a lot of 
time in Russia and a lot of time after having been in Russia 
with Russians. My sense is that they understand the enormous 
devastation that would result from the failure of deterrence.
    They themselves have had a famous incident or two in which 
they were called upon seemingly to make very critical decisions 
on very short notice and found it extremely difficult and very 
destabilizing. I think that they value highly the ability to 
speak with us about where and how these directions of change 
might be mutually advantageous. It's been true for the last 25 
years.
    So I agree entirely with what General Cartwright has said, 
that there is an opportunity for further new openings of 
discussion. There are extreme budgetary pressures on them as 
well that have in fact helped, if I could put it that way and 
use that word advisedly, to guide the direction of their own 
strategic construction, and they seem to be moving for another 
generation to be moving for another generation, to seem, but 
deliberately and very carefully, and maybe obviously wishing to 
solve completely all the technical problems before they invest 
significant amounts of new money.
    That deliberation is very helpful. So your suggestion that 
would we find a way rapidly to convince them not to go in a 
particular direction is probably a conclusion that's more 
informed by optimism than reality. But nevertheless, the 
general process I think can be a very useful one, and if we 
look back over the 20 to 25 or 30 years we've been engaged in 
these processes with the Russians, I believe that it is well 
worth our time and our effort in investing in those kinds of 
conversations, to see in fact whether we can produce a more 
stable, more realistic, still primarily heavily biased toward 
defending our own interests, kind of a political and strategic 
set of relationships, and the effort here is to try to outline 
that. Obviously, it takes us beyond where we have been in 
traditional cold war thinking, and I think that Dr. Payne, 
whose views I respect very, very much, is still pretty much 
giving us the traditional cold war thinking about this.
    Not that I would advocate being fast and loose with any of 
this. I think every step of the way we have to be exquisitely 
careful, particularly over the verification systems that will 
buttress and undermine our confidence that breakout is not on 
the mind of anybody.
    Senator Feinstein. Thank you very much.
    My time has expired, but, Dr. Payne, I do want to give you 
a chance to respond, and then we'll go to Senator Alexander.
    Dr. Payne. Thank you. I'd be happy to respond shortly to 
that. I see a real disconnect here, particularly with the 
recommendations from the commission's report, because in 
addition to the new heavy ICBM, Madam Chairwoman, that you 
rightly described, the announced Russian plans are for two 
other new ICBMs, a new stealthy bomber, and the deployment of 
new nuclear cruise missiles. There's also a report of a 
development of a fifth generation nuclear-carrying, nuclear 
missile-carrying submarine, and to carry nuclear cruise 
missiles. New advanced nuclear warheads are reportedly being 
deployed, including low-yield, low collateral damage warheads. 
And more recently, the Russians have announced plans to move 
towards nationwide ballistic missile defense, including by the 
year 2020.
    My concern is that with that level of modernization program 
and with that emphasis on nuclear weapons, that the Russians 
have both the strategic level and at the tactical level, it 
would be extremely difficult to engage the Russians in 
negotiations if we were to follow the program outlined in the 
commission's report. Essentially, you have a very robust 
nuclear modernization program on the Russians' side, leading 
towards heavily MIRVed nuclear systems, and I believe that 
those are a real problem, particularly if we move to a 
direction of a vulnerable force structure such as is presented 
in the commission's report.
    As I said, there's a disconnect between the Russians moving 
in that direction, our moving in a much less robust direction, 
and then expecting us to be able to come up with a good arms 
control agreement with the Russians in that context.
    Senator Feinstein. Thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    General Cartwright, your testimony says the existing 
plutonium facility at Los Alamos--I believe it says this--could 
accommodate plutonium pit requirements in the future, producing 
as many as 80 pits a year; and that the new facility, which we 
call CMRR, wouldn't be needed. I talked not long ago with the 
Los Alamos director, who told me he'd be hard pressed to make 
more than 30 pits per year.
    Can you discuss that discrepancy? Also, isn't it true that 
as long as we have nuclear weapons, even a lower number, that 
we'll still need a new plutonium facility in the future?
    General Cartwright. I think we're within four, five, six of 
the same number. In other words, what the commission looked at 
was taking the planned smallest option, which was an option 
that got you somewhere between 30 and 40 for a single shift for 
a year, and going to dual shift in a crisis that would take you 
up to somewhere in the 70 to 80 number depending on what you 
could get.
    The tooling, the floor space of those issues, the floor 
space was one of the critical issues.
    Senator Alexander. So you're saying it's as simple as going 
to two shifts?
    General Cartwright. It's not simple because you have----
    Senator Alexander. But you're saying it could be done?
    General Cartwright. Right. But it can be done in an 
extreme.
    We would say, and I would agree with him, that you would 
want to stay in a production rate that was somewhere in the 15 
to 20 per year, just to replace and to ensure that you protect 
the pedigree of the test, the quality of the material that we 
have today. But if you increase the number of shifts, it is 
believed that the floor space then becomes the constraint and 
that constraint would limit you to somewhere in the 
neighborhood of 80 per year in running the plant, so to speak, 
full up.
    Senator Alexander. Well, that's interesting. I mean, I 
didn't ask you about shifts, so I'll do that next.
    But isn't it true that as long as we have nuclear weapons, 
even a lower number, we'll need a new plutonium facility in the 
future? Or do you think the current one we have is adequate?
    General Cartwright. The current one that we have is 
adequate today, but I do agree that we will eventually need a 
facility. The question is to size it appropriately and to 
understand exactly why you're building it under the stockpile 
stewardship side of the equation also, the science part of 
this.
    The question becomes do you need it now, number one; and 
then, number two, do you have existing infrastructure that 
could accommodate it or do you need a whole new facility? 
That's the question, and I would certainly turn to the experts 
to get the answer to that. But what I believe is right now the 
thought process is we need it now. I think the administration 
has demonstrated already that that's not necessarily the case.
    Senator Alexander. Ambassador Pickering or Dr. Payne, do 
you have any comment on that?
    That's a very important point, General Cartwright, and one 
which I hadn't even considered, about the two shifts in terms 
of the need for the CMRR.
    Are you familiar enough with that process to say whether a 
different sort of facility is needed, a new way? Do we need a 
new strategy for producing plutonium pits within the current 
facility? Are you familiar enough with the process to make a 
comment on that?
    General Cartwright. No, it would be the same process. In 
fact, we've already invested and bought the tools for a second 
group to run. It is a floor space issue. This again is to the 
level of detail that you probably don't want to go to, but you 
have two buildings sitting side by side----
    Senator Alexander. I've seen that.
    General Cartwright [continuing]. With a gap between. You 
can connect and increase the floor space to what people believe 
would get you somewhere in the neighborhood of the ability to 
do 80 per year.
    Senator Alexander. So you're basically saying that, 
whatever the current level of production is, whether it's 20 or 
30 or you think it might be even higher than that, that if the 
floor space issue is solved that you can double that production 
within the same facility?
    General Cartwright. With additional shifts.
    Senator Alexander. With additional shifts, would double the 
facility. Do you have any idea as to the cost? Is solving the 
floor space issue a substantial cost?
    General Cartwright. No, it's not. It has been costed out by 
the lab.
    Senator Alexander. Thank you, Madam Chairman. My time is 
up.
    Senator Feinstein. Thank you very much, Senator.
    Senator Tester, welcome. It's good to have you here.
    Senator Tester. Thank you, and thanks for having this 
hearing. I want to thank everybody for being here, of course.
    You started out, General Cartwright, by saying these are 
50-year decisions and I don't really know where to start, so 
I'm going to start 50 years ago. In 1962 I was entering 
elementary school, my first year, and I live in the neck of the 
woods in north central Montana where they were building ICBMs, 
where the teacher would tell us what we were to do in the case 
of a nuclear attack, head to a bomb shelter.
    I remember this stuff very vividly, where when we were out 
riding horses we'd see tinfoil that looked like it was shredded 
and wrapped in paper, that my folks said: Don't touch that; 
that's radioactive and it could have some impacts on you. The 
Cuban nuclear crisis was evident.
    So what I want to talk about, because the deterrent value 
of these nuclear forces has been something that has been part 
of what I've, quite frankly, lived through since I can 
remember, and the ICBMs have been a big part of that deterrent. 
Not to put you on the spot, but 3 years ago, General 
Cartwright, you had testimony that endorsed the value of the 
triad, the nuclear triad, and our ICBM force, saying it was a 
key priority for our military to preserve that triad. What has 
changed in the last 3 years?
    General Cartwright. Three years ago we were still 
developing missile defense. We did not have what I would call a 
robust technical line towards a conventional alternative to the 
ICBM force that we have today, in other words, the same 
missiles with conventional warheads. That has changed. It's not 
ready for fielding yet, but it is real and in the test 
programs.
    We did not have the nonkinetic capabilities that we have 
today. We had a very capable conventional force 3 years ago. 
That part of the capability had come. But the passive defenses 
were also not in place, and when I talk about passive defenses 
I'm talking about the things that protect the buildings, that 
go underground to protect the leadership, things that you would 
bring in on a natural basis, that not only address the 
strategic side, but address the terrorist side of the 
equation--standoff distances from buildings and what-not.
    So you have now what in the last two administrations prior 
to this were the things that they wanted to see built out, 
which the commission that Keith, Dr. Payne, had referred to, 
were the things that we did not have in a credible state of 
capability at that time.
    Over the next 10 years, where we are today, it's reasonable 
to expect that our missile defenses are in fact going to be 
capable and are capable today, particularly at the regional 
level. We are not trying to make them capable yet at the 
strategic level. That's something we've avoided for stability 
reasons.
    Conventional capabilities that are prompt global strike in 
nature, that allow us to address problems that today we can 
only address with nuclear weapons, give us plausible 
alternatives. So it is that stack-up, in addition to the fact 
that our infrastructure and our delivery systems need to be 
reconstituted over the next 10 to 15 years as we start into 
that program, that this is the time to have that discussion. So 
that in general is the reason.
    Senator Tester. Let me kick it, because this has been a 
nice discussion--let me kick it over to Dr. Payne. You heard 
what the General just said. Where do you disagree with that?
    Dr. Payne. I agree with General Cartwright's endorsement of 
ballistic missile defense and advanced conventional weapons, 
very much so, as he knows. My concern with the recommendations 
from the report, however, are that the reductions identified 
would leave U.S. retaliatory forces vulnerable to a handful of 
nuclear weapons. It's probably the worst of all worlds, is to 
have a lethal capability that is very vulnerable to an 
opponent.
    The force structure that is recommended in the report would 
be quite vulnerable, because it eliminates the ICBM, it 
eliminates the B-52. Essentially what you're doing is reducing 
down to essentially a handful of targets that an opponent might 
envision, envisage, as the target set to strike the United 
States. That strikes me as a very dangerous condition to put 
the United States in, and it's something, as I said in my 
opening remarks, that all Republican and Democratic 
administrations have sought to avoid for 50 years.
    Senator Tester. Okay. I don't know if I'll be around for 
the next round because I've got a meeting at 11:15. I would 
just say this. I think things have changed. One of the things I 
don't understand is why the ICBMs, which were the most cost-
effective of the triad, are the ones that are being eliminated, 
number one.
    Number two, I think we do have different challenges than we 
had when I was growing up. I mean, Russia was going to lob them 
over on us, we would lob them on them, and so it was mutual 
destruction for both of us, and so nothing happened. And it's 
why, as you pointed out, we haven't had the kind of losses--or 
maybe it was Dr. Payne--since World War II.
    On the other side of the coin, it is a different world now 
in that terrorists and people can figure out how to make these 
bombs, and how do we stop that? Along with what Chairman 
Feinstein talked about, the fact that Russia--and you guys, 
too--may be developing new weapons that we need to be concerned 
about. When they say they're reducing their stockpile, are they 
really? You know what I mean? I mean trust and verify stuff.
    Thank you guys very much.
    Senator Feinstein. Thank you very much, Senator Tester. If 
you want to take more time, you're welcome to do it.
    Senator Tester. Well, I would love that. If I could just 
ask, why the ICBM? We're going from a triad to a dyad--why the 
ICBMs when they're the most cost-effective of the triad?
    General Cartwright. A couple of things that we looked at. 
The first is that the ICBM in a conventional form is something 
we ought to retain, but not at the numbers we have of the 
nuclear. I mean, we're talking somewhere in the neighborhood of 
25 to 50 is probably the maximum that we want. That would be an 
alternative.
    Senator Tester. In a conventional form?
    General Cartwright. In a conventional form. In the 
strategic form that they exist in today, which is termed as 
their launch positions in those States is set up for a minimum 
energy trajectory, what it's called, but a basic arc from point 
A to point B. That arc must traverse Russia in order to get 
anyplace else in the world. When you lay the map out flat, you 
must traverse Russia.
    That means that any time you contemplate using the ICBMs as 
they're currently based today, you run the risk of the Russians 
misinterpreting and retaliating. It's a very difficult 
scenario, but we've played it out I don't know how many times 
certainly in my time, and Keith I think in the time that he's 
worked on it.
    So that's one of the issues that we're concerned about, is 
the malpositioning of the basing. It was done appropriately for 
the time, but today it doesn't address the rest of the world 
and it puts in jeopardy the potential of a mischaracterization 
of any activity.
    So you would have to reconstitute the basing concept also. 
Our illustrative scenario of force structure does not foreclose 
ICBMs. It just used the ICBMs because you have these problems 
of basing, location, and overflight issues that make it 
difficult to use it against the broad range of targets that we 
may need to be able to address in the future.
    Senator Tester. I got you, okay. I understand. I'm putting 
different countries through my head and you're correct. Is it 
true with North Korea, too?
    General Cartwright. It is true, yes. You do have to come 
down across.
    Senator Tester. Okay.
    General Cartwright. That's one of the problems that we have 
with missile defense for North Korea, is that the intercept 
occurs over Russian territory.
    Senator Tester. Okay. Dr. Payne, do you want to respond? 
And I don't mean to leave you out, Ambassador Pickering. If you 
want to join in, please do.
    Go ahead. I could ask the question to you first and then 
cut out General Cartwright, too. But go ahead, Dr. Payne.
    Dr. Payne. Again, there's no disagreement between General 
Cartwright and myself on the orbital mechanics involved. But 
the issue is, with regard to the ICBM, that there are enormous 
advantages to it, which is why I disagreed with the report's 
recommendation to eliminate the ICBM.
    Senator Tester. But specifically what he talked about--and 
I'm a big proponent of ICBMs because I was raised with them. He 
talked about the fact that if you use them Russia may 
misinterpret their use. Could you respond to that?
    Dr. Payne. Sure. This is an example of, I think, conflating 
issues of deterrence and issues of warfighting. Remember that 
deterrence is all about withholding the weapon, not about using 
the weapon. So I'm looking at the ICBM as a withheld weapon for 
the purposes of deterrence. As a withheld weapon, it gives the 
President the most time to consider options because it is 
prompt. So it gives the most time for the consideration of 
options by the President, which I think is a very good thing.
    It's cost-effective, as I believe you mentioned, Senator. 
Absolutely, it's the most cost-effective part of the triad. And 
I think most importantly, it denies any opponent a relatively 
easy theory of destroying the majority of U.S. forces with a 
very small counterforce shot.
    Without the ICBMs, you're looking at a target structure 
that could be attacked with a handful of weapons. So that's a 
really important consideration when we're thinking about 
stability and instability and deterrence in general. And by the 
way, that's not limited to a cold war concept. That's very much 
a current concept that we need to remember.
    Senator Tester. Go ahead, Ambassador.
    Ambassador Pickering. General Cartwright may have his own 
views on this, but as long as we maintain the sea-based force--
and we're here looking at an illustrative force posture for 10 
years--the best information I have is that we have a highly 
reliable, highly survivable deterrent force.
    Senator Tester. Once again, I want to thank the panel, and 
I want to respectfully thank Madam Chair. Thank you very much 
for your flexibility.
    Senator Feinstein. Thank you very much.
    I'd like to just ask another question and it's on the need 
for a hedge. I think, General Cartwright, you spoke about a 
hedge and maintaining a larger nuclear weapons stockpile is to 
hedge against geopolitical or technical surprise, and that we 
currently maintain two to three weapons in reserve for every 
actively deployed weapon.
    Now, as I understand your recommendation, it's to have 450 
strategic weapons deployed and 450 in reserve, which means a 
ratio of only 1-to-1 for deployed and reserve warheads. So how 
do you overcome those concerns about the geopolitical and 
technical surprise?
    General Cartwright. I think this is a really important 
point, and it is a judgment issue that we need to consider. But 
in the 1950s when we put together the construct for the 
national labs for building weapons, for deploying weapons, et 
cetera, it was a time industrially so that you built the weapon 
as a single entity, not as components. So if one weapon failed, 
you took that weapon off line and you put another weapon in its 
place, either of the same make or of a different make, and you 
used diversity in your inventory to protect you at the end item 
level and you used large numbers--or a large inventory to 
assure that your hedge was available and credible when you 
needed it.
    Manufacturing has moved a long way since the 1950s. Today 
we work at the component level, and we get diversity at the 
component level to protect us against either geopolitical or 
technical risk that could occur. In other words, a particular 
component within the weapon all of a sudden at a certain age 
dies, malfunctions, whatever the issue is.
    So the money that you have put towards the industrial base, 
so to speak, the labs' capabilities, is to move from end item 
sparing and large inventories of weapons to component sparing. 
So you have less of the end items and you have more component 
diversity to allow you to do that. It's just a manufacturing 
logistics, inventory management system that is much more 
effective.
    Several studies have indicated, both at NNSA and inside of 
our federally funded research and development center (FFRDC) 
structure, that you could get down to a 1-to-1 or a 1-to-1.12 
level of sparing, which is substantially below where we are 
today, protect the test pedigree that we have, and have a 
combination of the 80-pit construct if it were an emergency and 
the ability to mix and match existing pits in the stockpile to 
increase the number of weapons that not necessarily were 
available but are available to be used.
    So the belief is, through these studies, is that that's the 
method by which you bring the hedge down, don't have a large 
part of your force characterized as being a hedge and therefore 
not counted, and you manage your inventory in a way that's 
fundamentally different than we do today.
    NNSA is trying to move in that direction and they believe 
it will take you somewhere, the last I heard from them was, 
somewhere in the 15- to 20-year timeframe to get all of the 
components updated, cleaned up, and spareable.
    Senator Feinstein. Are you saying that there is one generic 
pit that will fit the different warheads?
    General Cartwright. Actually what I'm saying is that there 
is more than one, but you don't need to have two separate 
weapons to be able to bring them together. In other words, the 
test pedigree will allow you to mix and match in ways that we 
have not in the past, and that's the theory behind augmenting 
the 80 per year.
    Let's just say that 100 weapons all of a sudden were 
malfunctioned in some way. The ability to reconstitute could be 
a combination of your ability to build new and a combination of 
taking old and putting it in in different combinations inside 
the weapon. That's the theory behind it, and it's more than 
theory. This has been a lot of intellectual work and a lot of 
work on the part of the scientists at the two main labs to 
believe and to set out and to actually prove that they could 
protect the test pedigree and still do this.
    Senator Feinstein. I didn't know that. I didn't know that 
that was a possibility, that you could essentially use the same 
pit.
    General Cartwright. In a different weapon.
    Senator Feinstein. Senator, did you have a question?
    Senator Alexander. I only have one, Madam Chairman.
    Senator Feinstein. Okay.
    Senator Alexander. In April, Secretary Kissinger and 
General Scowcroft wrote an op-ed about nuclear weapons 
reduction and they said, ``Lower numbers of weapons should be a 
consequence of strategic analysis''--which you've said to us 
today--``not an abstract preconceived determination. Strategic 
ability is not inherent with low numbers. Excessively low 
numbers could lead to a situation in which surprise attacks are 
conceivable.''
    Dr. Payne, what's your reaction to that comment?
    Dr. Payne. I certainly concur with the authors' emphasis on 
the need for flexibility and for the survivability of the 
forces that we have to pose a retaliatory deterrent. Again, 
that's one of the reasons why I have the concern with the 
recommendations of the report, because the recommendations of 
the report, the force structure that would follow, would be, as 
I said, highly vulnerable to a very small strike.
    Madam Chairman, that gets back to your point about the 
hedge, because there really isn't a hedge in the force 
structure that's identified in the report. Essentially, the 
only thing that would be--the only part of that force structure 
that would be survivable would be the boats, the submarines at 
sea with nuclear missiles. And if you look at the numbers, that 
would probably be down to as low as four or five, given 
publicly acknowledged operating practices by the Navy, which 
would lead to as few as 180 warheads under the terms of the 
report that would be survivable, and no hedge would necessarily 
be there because everything else would be rather vulnerable to 
a strike.
    So my concern falls exactly along the lines that the 
article that you mentioned, Senator Alexander, lays out, and it 
gets back to your question about the hedge, Madam Chairwoman. 
The basic point about the hedge is that the more viable the 
industrial and NNSA infrastructure, the lower the need for a 
standing arsenal of reserve forces for a hedge. But what we do 
have needs to be survivable, particularly the hedge. And the 
recommendations from the report I believe have the risk that I 
just outlined, leaving both the forces and the hedge vulnerable 
to a very small number of weapons.
    Senator Alexander. Ambassador Pickering or General 
Cartwright, do you have a comment on the concern of Secretary 
Kissinger and General Scowcroft that low numbers could lead to 
a situation in which surprise attacks are conceivable?
    Ambassador Pickering. Well, I think that one can figure a 
set of circumstances that does produce vulnerability. I think 
Dr. Payne plays a little fast and loose with our figures, but 
we'll leave that for the report and for you to digest.
    But my own sense is of course that's true. It depends very 
heavily on things like verification. It depends heavily on the 
kind of assurance you have the other side is behaving. You 
don't want to put yourself in a position where you put all your 
eggs in a basket and say, here they are, come and get them. We 
all understand that.
    So there has to be, I think, a lot of careful thinking 
given to the question at any level, but particularly at these 
levels, of how and in what way you deal with the problem of 
vulnerability. None of our proposals, I believe, put us into a 
position of excessive vulnerability. That was not our intent 
and we certainly looked at that very, very carefully.
    The problem of one or two strikes should be something we 
contemplate very, very carefully and guard against, and the 
kind of force that we have and the dispersion of the weapons 
and the dispersion of the launch vehicles, I think, gives us 
some more than adequate hedge against that, particularly if you 
look carefully at the numbers we propose and the in-commission 
and in-service rates of the weapons systems engaged.
    Senator Alexander. General Cartwright.
    General Cartwright. I think it's been covered pretty well, 
that you've got both sides of that. The only piece that I would 
probably add to this is that I go back again to the 
infrastructure side of the equation, because it's important 
that if a nation decides to break out and build larger 
arsenals, that we may need to adapt our arsenal. So having the 
ability to do that with a viable infrastructure, rather than 
building inventory needlessly--you can call it minimalist, but 
the reality here is that that inventory--we learned it in the 
conventional side: If you build an airplane for a conflict, you 
have it for 5 years and then the conflict comes, you're going 
to have to update that airplane for the conflict you're 
actually in.
    We're probably going to have to make adjustments as we go 
to the future. But you do not want to build this huge inventory 
that you have to make adjustments with as some sort of an 
artificial edge for the last conflict and not have what it is 
you need to be able to build for what you're really facing.
    So this subcommittee really sits on that adaptability, it 
really does. It's that infrastructure, it's that intellectual 
capital at the labs, along with the ability to adapt and look 
at what we have and move forward, and are we building them the 
cushion, I think is what certainly Dr. Kissinger and Perry are 
looking at, key.
    Could you sneak in in the middle of the night and attack? 
The idea that only 300 nuclear weapons or 200 or whatever it is 
is insignificant if they're launched against somebody is wrong, 
it's just patently wrong. Any president--it doesn't matter 
whether they call it tactical or strategic. If it blows up, it 
is a catastrophic event in this world, and we shouldn't 
undercharacterize that.
    So the likelihood of somebody launching 300 missiles over 
the pole at us and what-not should not be dismissed. But the 
retaliation capability that we're preserving here--and you can 
mix and match; you can have more ICBMs and less of something. 
But the retaliatory capability of 300 nuclear weapons on 
anybody's territory is catastrophic, catastrophic.
    Senator Feinstein. The sizes are all classified, and when 
you know the sizes then you see the catastrophe. That's the 
hard part.
    Senator Alexander. I have no more questions, Madam Chair.
    Senator Feinstein. In any event, are there any final 
comments that anyone would like to make? I think this has been 
a very useful discussion and we've all learned something. Dr. 
Payne, would you like to make a comment? I'll give everybody an 
opportunity for a closing comment.
    Dr. Payne. If I might, and thank you, Madam Chairwoman.
    I've been accused of many things, but never of being fast 
and loose before. So I sort of appreciate that.
    Let me suggest that the points that I was----
    Ambassador Pickering. I say it with the greatest respect.
    Dr. Payne. Indeed.
    The point is not that 200 to 300 weapons would be 
insignificant. But again, deterrence is not warfighting and 
warfighting is not deterrence. They're two different things. 
What we're talking about for deterrence is a withheld threat. 
The requirement for deterrence over decades is to have as 
flexible and resilient capability as you can, so the President 
can adapt the force to very different circumstances.
    The force structure recommended in the report would indeed 
leave the United States with only 200 or so survivable weapons, 
all SLBMs. That is the opposite of a flexible and resilient 
force. So it's not that 2 to 300 weapons wouldn't cause 
enormous catastrophic damage. That's easily recognized, 
absolutely true. General Cartwright and I are in complete 
agreement on that. That's not the question.
    The question is would it provide a robust, reliable, 
credible deterrent for decades? And my answer to that is it 
would not be flexible, it would not be resilient, and therefore 
we would be putting at risk our ability to deter war possibly 
for decades. This isn't something that we want to minimize. We 
want the best deterrent that we can, and that calls for a force 
structure, I believe, that's flexible and resilient and very 
different from the one recommended in the commission's report.
    Senator Feinstein. Thank you.
    Ambassador Pickering.
    Ambassador Pickering. I would only say the following, that 
we've given the most careful consideration to the force 
structure that we are advocating. It's illustrative at the 
moment. It isn't something that we would say every piece of 
every point of every presentation we made is fixed in concrete 
somewhere. But we believe overall it provides an extremely 
solid and resilient and careful perspective.
    Dr. Payne wants us to look ahead several decades. General 
Cartwright has made it clear that what we have put on the table 
has to be adaptable, it has to be available to be adapted, it 
has to be rebuildable if other circumstances come none of us 
are clairvoyant enough to know. We have taken a look for 10 
years in our illustrative proposal, and we believe that what we 
have provided provides the stability and the security and the 
resilience over that period of time. We have taken a look at 
how to go from that into the next 10 years and beyond, and 
General Cartwright I think explained that extremely well.
    So we believe that this is a force very much worth looking 
at. It is a force that will, we hope, begin to help to move in 
the direction that you set out, Madam Chairwoman, at the 
beginning of the effort of can we be smarter and more capable 
and indeed more effective in defending our country.
    Senator Feinstein. Thank you very much.
    General Cartwright, why don't you give your wrap-up 
comments?
    General Cartwright. I don't disagree with the attributes 
that Keith is putting out. We're very much aligned there. I 
believe that flexibility is gained through an adaptable 
infrastructure that can respond to the threats as they emerge 
and through the other arms, like conventional forces, missile 
defense.
    But it's a question, and it's debatable, and all of those 
will be adjusted because if we move to a multipolar, 
multilateral type of construct, then we have to be able to 
convince--because deterrence is, as Keith said, is really in 
the mind of your adversary. It's do they believe that you hold 
something they hold dear at risk and that you are willing to 
actually use it. So you have to talk about the warfighting 
side. Otherwise you really lose the element of deterrence that 
is the credibility, which is at the essence.
    I would bring up just two other subjects here that we 
haven't talked about, just so that it's there for 
consideration. One is in fact our undeclared strategy for using 
these weapons. There are nations in the world today that would 
like to see us and others move to a no-first-use policy. We've 
debated it in this country. The question is, with the changing 
of times and the changing of the threat, is it time to go back 
and look at that again?
    Much of what you have in this arsenal is to protect you 
against something that happens in the middle of the night and a 
whole bunch of weapons that come raining down on you in a first 
strike, decapitating our Government or whatever. Those things 
could be the things of future treaties and verifiably watched, 
such that if you could remove that kind of capability you could 
in fact, or reduce it, you could in fact change your posture in 
significant ways. We ought to explore that more. That's a 
policy issue rather than a technical issue, but it has 
technical ramifications.
    The second is that as we go forward the costs that have 
been associated, as you laid out in your testimony, Madam 
Chairwoman, of the B-61--we have to get our arms around how to 
cost these extension programs, because we are going to do them 
for the next 50 years. The likelihood of going to zero is 
probably not inside that window. So we have to find a way to 
understand what it costs, what the implications of a large 
inventory are versus a small inventory, and do a good business 
case.
    Even though it is warfighting and it is strategic and it is 
our security, it should not escape the business case of how you 
do it and how you think about the trades that you have inside 
of it. I think we have not gotten that business case nailed 
down, just based on the cost growth that we have today. So I 
just throw that on the table.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Let me just briefly respond to you about 
that, because Senator Alexander and I have been very concerned 
about that. The inability to keep these programs within initial 
budget confines, they go up exponentially, is a problem. So we 
are on that.
    Senator Alexander has specifically suggested that we look 
at root causes. As late as yesterday afternoon, we met with 
NNSA and Mr. D'Agostino and others with some questions we have 
and, I think, set into motion at least a process where we will 
be able to have regular reports on a monthly basis from one 
person who is in charge of these systems and begin to 
understand, if there are problems, what are they going to do 
about the problem, because you can't go on and estimate 
something at $600 million and have it come in at $6 billion. So 
that what you've pointed out is a very acute problem that we 
are aware of and doing our best to solve.
    Do you want to make a comment?
    Senator Alexander. No.
    [The following questions were not asked at the hearing but 
were submitted to the witness for response subsequent to the 
hearing:]
     Questions Submitted to General James Cartwright, USMC, Retired
              Questions Submitted by Senator Susan Collins
    Question. In your report, you discuss bilateral U.S.-Russia 
negotiations as the only legitimate means to reduce the level of both 
nations' current stockpiles to 900 weapons. You mention China as a 
player in future reductions, but discuss its participation only when 
the stockpile reaches 1,000 weapons. In my view, the report 
underestimates the importance of Chinese participation in future rounds 
of arms reductions. By some accounts the size of their arsenal could 
already be approaching 3,000 weapons. I am also not certain that 
Chinese participation can be assumed, despite claims by the Foreign 
Ministry that China aspires to nuclear disarmament. More so than any 
time in its history, the image of a monolithic Chinese Government is 
more fiction than fact. There are multiple competing interests within 
the government, many of which would oppose any effort to reduce its own 
stockpile.
    What is the basis for taking China at its word and assuming that it 
is ready or willing to enter into disarmament negotiations?
    Answer. In the area of nuclear weapons policy, China has not 
deviated from its traditional position, harking back to Mao Zedong's 
guidance a half century ago, emphasizing ``minimal deterrence'' and 
requiring only a small survivable nuclear force. The governing nuclear 
unit--the 2nd Artillery--under the Chinese General Staff has adhered 
strictly to this time-honored doctrine and the other relevant 
components of the Chinese Government--the Central Military Commission, 
the Party, and the Foreign Ministry--appear to be ``as one'' in this 
regard. The policy reflects a unified and ``monolithic'' constellation 
of actors and historically produced a relatively small nuclear arsenal. 
Without venturing into the classified domain, suffice it to say that 
that scholarly estimates in the public domain put the size of China's 
arsenal at approximately an order of magnitude smaller that the number 
you cite (300 versus 3,000). China's nuclear modernization is 
qualitatively impressive, however.
    The report intended to emphasize that China's future participation 
in future nuclear arms control is very important. The thrust of the 
report is that it is critically important to broaden the scope of 
nuclear arms control to include China and other nuclear weapons 
countries. The historical bilateral framework served its purpose but 
multilateral nuclear negotiations must be initiated soon to address 
effectively the multitude of nuclear risks and threats that lie outside 
the U.S.-Russian relationship. Although there are reasons to believe 
that China would participate in such multilateral talks, there 
doubtless exists some internal interests that oppose entering into a 
nuclear disarmament process. Thus we should not assume but rather test 
China's willingness to join the process. Our commission considered, and 
did not reject, the notion of linking the very deep cuts in U.S. and 
Russian arsenals to China's commitment to constrain its arsenal. We 
were and remain open to ideas for drawing China into the process.
    Question. I am concerned that tactical nuclear weapons are not 
thoroughly discussed in your report. While the New START treaty 
strengthened nuclear nonproliferation efforts, it did not address the 
significant disparity between the number of nonstrategic nuclear 
weapons in Russia's stockpile compared to our own. Your report, 
likewise, describes the value of tactical nuclear weapons as 
``virtually nil'' to U.S. operational plans. The Perry-Schlesinger 
Strategic Posture Commission reported that Russia had an estimated 
3,800 tactical nuclear weapons remaining in its arsenal, but you 
advocate that Russia should be encouraged to move these weapons into 
storage as part of a future agreement.
    Given the lack of any meaningful dialogue with Russia on tactical 
nuclear weapons during the New START negotiations, what confidence do 
you have that Russia would accede to discuss tactical weapons, or their 
removal as a tactical tool from operational bases, in the next round of 
disarmament talks?
    Answer. A previously published Global Zero report by a different 
commission composed of highly experienced European, Russian, and 
American members (including former senior military members) thoroughly 
examined the issues surrounding U.S.-NATO and Russian tactical nuclear 
weapons deployed on the European continent. It discusses the diminished 
role of U.S.-NATO tactical weapons after the end of the cold war, and 
recommended their complete withdrawal from combat bases to central 
storage in tandem with comparable Russian re-location. (See http://
www.globalzero.org/files/gz_nato-russia_commission_report_-_en.pdf.)
    The report to which I testified before your subcommittee considers 
the omission of tactical nuclear weapons from the U.S.-Russian nuclear 
talks to be a very serious deficiency in need of rectification for the 
next round. Our view is that future talks should be comprehensive and 
include all categories of weapons--strategic deployed, strategic 
reserve, and tactical--in an effort to regulate the total number of 
nuclear weapons in each arsenal while allowing each side the freedom to 
mix these categories in whatever fashion they deem best suited to their 
national security interests.
    Russia's primary concern today is conflict on her borders and 
Russia's perceived conventional inferiority in some scenarios (e.g. 
conflict with China) increases the importance of tactical nuclear 
weapons for foiling an enemy attack. Russia's tactical nuclear arsenal 
is thus much larger than the U.S. arsenal. Russia will be very cautious 
in cutting its active tactical stockpile--the size of which is 
uncertain given the deficiency noted above that to date excludes them 
from regulation and verification. (Estimates in the range of 1,500-
2,000 active weapons appear to be reasonable.) However, it is clear to 
me that Russia does not need thousands of tactical nuclear weapons to 
perform this mission. A recent Russian study conducted in response to 
the Global Zero report, chaired by a former Chief of Staff of the 
Russian Strategic Rocket Forces, indicated that Russia could safely 
reduce to 500 total active tactical nuclear weapons. This number is 
comparable to the size of today's U.S. tactical nuclear arsenal. In 
exchange for deep cuts in Russia's tactical arsenal, the United States 
could deeply cut our nondeployed strategic stockpile, which greatly 
outnumbers Russia's reserve strategic stockpile. Whether or not a deal 
along these lines could be negotiated remains to be determined, but our 
study concluded that such an approach has merit and promise.

                         CONCLUSION OF HEARING

    Senator Feinstein. Well, let me then say thank you all very 
much. I think it's been a very interesting morning. I'm very 
grateful both for your mind and your willingness to be here and 
share your thoughts with us. So thank you.
    The hearing is adjourned.
    [Whereupon, at 11:31 a.m., Wednesday, July 25, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
